<html>
<title> - IMPACT OF NO CHILD LEFT BEHIND ON ENGLISH LANGUAGE LEARNERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
      IMPACT OF NO CHILD LEFT BEHIND ON ENGLISH LANGUAGE LEARNERS

=======================================================================


                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 23, 2007

                               __________

                           Serial No. 110-14

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

34-017 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Bob Inglis, South Carolina
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Rob Bishop, Utah
Joe Sestak, Pennsylvania             Todd Russell Platts, Pennsylvania
David Loebsack, Iowa                 Ric Keller, Florida
Mazie Hirono, Hawaii                 Joe Wilson, South Carolina
Phil Hare, Illinois                  Charles W. Boustany, Jr., 
Lynn C. Woolsey, California              Louisiana
Ruben Hinojosa, Texas                John R. ``Randy'' Kuhl, Jr., New 
                                         York


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 23, 2007...................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     2
    Hinojosa, Hon. Reuben, a Representative in Congress from the 
      State of Texas:
        Question for the record..................................    70
        Question for the record..................................    76
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia:
        Question for the record..................................    71
        Question for the record..................................    72

Statement of Witnesses:
    Ashby, Cornelia M., Director of Education, Workforce, and 
      Income Security Issues, U.S. Government Accountability 
      Office.....................................................     4
        Prepared statement of....................................     7
        Response to questions for the record.....................    70
    Guzman, Marta, Principal, Oyster Bilingual Elementary School.    42
        Prepared statement of....................................    44
        Response to questions for the record.....................    72
    Sanchez, Francisca, Assistant Superintendent of Curriculum 
      and Instruction, San Bernardino County Superintendent of 
      Schools Office.............................................    45
        Prepared statement of....................................    47
    Young, Beverly, Ph.D., Assistant Vice Chancellor, Academic 
      Affairs, California State University System................    33
        Prepared statement of....................................    35
        Response to questions for the record.....................    73
    Zamora, Peter, Co-Chair, Hispanic Education Coalition........    28
        Prepared statement of....................................    30
        Response to questions for the record.....................    76
        Response to questions for the record.....................    78


      IMPACT OF NO CHILD LEFT BEHIND ON ENGLISH LANGUAGE LEARNERS

                              ----------                              


                         Friday, March 23, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:45 a.m., in 
room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Scott, Kucinich, Payne, 
Holt, Sanchez, Sarbanes, Hirono, Hare, Woolsey, Hinojosa, 
Castle, Platts, Wilson, Boustany, and Kuhl.
    Also Present: Representatives McKeon and Heller.
    Staff Present: Mark Zuckerman, Staff Director; Alex Nock, 
Deputy Staff Director; Jill Morningstar, Education Policy 
Advisor; Lloyd Horwich, Policy Advisor for Subcommittee on 
Early Childhood, Elementary and Secondary Education; Joe 
Novotny, Chief Clerk; Brian Kennedy, General Counsel; Lamont 
Ivey, Staff Assistant, Education; Ricardo Martinez, Policy 
Advisor for Subcommittee on Higher Education, Lifelong Learning 
and Competitiveness; Denise Forte, Director of Education 
Policy; Thomas Kiley, Communications Director; Lisette 
Partelow, Staff Assistant, Education; Rachel Racusen, Deputy 
Communications Director; Tylease Alli, Hearing Clerk; Adrienne 
Dunbar, Legislative Fellow, Education; Sally Stroup, Minority 
Staff Director; Robert Borden, Minority General Counsel; 
Kathryn Bruns, Minority Legislative Assistant; James Bergeron, 
Deputy Director of Education and Human Resources Policy; Steve 
Forde, Minority Communications Director; Jessica Gross, 
Minority Deputy Press Secretary; Taylor Hansen, Minority 
Legislative Assistant; Chad Miller, Minority Professional Staff 
Member; Susan Ross, Director of Education and Human Resources 
Policy; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Kildee. A quorum being present, the hearing of the 
subcommittee will come to order.
    Pursuant to committee rule 12A, any member may submit an 
opening statement in writing which will be made part of the 
permanent record. I now recognize myself.
    I am pleased to welcome my fellow subcommittee members--
Governor Castle--the public, and our witnesses to this hearing, 
The Impact of No Child Left Behind on English Language 
Learners.
    English language learners face unique challenges. Like all 
children, they have to learn history, math, reading, science, 
and other subjects. They also have to learn a new language at 
the same time. Those challenges are not easy, and we owe it to 
those children to ensure that their schools have the resources 
and support to provide them with the education they need and 
deserve. In that regard, it is particularly important that we 
reverse the trend under the administration and recent 
Congresses of reducing funding for English language 
acquisition.
    English language learners are a large and growing segment 
of our students. Today, there are about 5 million ELL students 
nationwide, representing about 10 percent of all public school 
students. About three-quarters of these students are Spanish-
speaking. It might surprise some to know that most ELL 
students, 76 percent of elementary school ELLs, were born in 
the United States. Unfortunately, these students' academic 
performances is well below that of their peers, and ELL 
students have excessively high dropout rates due to many 
factors, one discouragement.
    By 2025, ELL students may represent as much as 25 percent 
of all students, so it is no overstatement to say that for No 
Child Left Behind to succeed, in fact, for our country to 
continue to prosper, we must address this issue.
    I believe that our witnesses today will provide us with 
valuable information on how NCLB is working for ELL students 
and what we need to know to make it work better. We will hear 
about critical issues concerning the validity and the 
reliability of assessments given to those students. One 
foundation of a successful No Child Left Behind is data, and if 
the data concerning ELL students' performances is not reliable, 
it will not help schools, school districts and States implement 
reforms for these students.
    We will hear about how the Department of Education has been 
slow to provide States with the assistance they need to 
implement No Child Left Behind's provisions for ELLs and the 
status of recent efforts to correct that. We will hear about 
promising practices for training teachers of ELL students and 
for improving their academic achievement, and also from an 
outstanding bilingual public school here in Washington D.C., I 
hope that today's hearing will help us understand which issues 
require better implementation of No Child Left Behind and which 
might be addressed by changes to the law itself, particularly 
with regard to the testing of these students.
    I look forward to working together with my ranking member, 
Mr. Castle, our full committee chairman and ranking member, Mr. 
Miller, and Mr. McKeon, and with all of the members on this 
committee on a bipartisan reauthorization of No Child Left 
Behind this year, and I believe that today's hearing is an 
important step in that process.
    It is now my pleasure to yield to the ranking member, 
Governor Castle, for his opening statement.
    Mr. Castle. Thank you, Chairman Kildee. I am very pleased 
to be here today with you and with an outstanding panel, and I 
welcome everybody to, I think it is, our second No Child Left 
Behind hearing of the week. It has been a long week here, not 
because of these hearings, but for other reasons, but I am 
pleased that we are using the time that we have to continue our 
preparation for the reauthorization of No Child Left Behind. I 
believe it is imperative that we examine all issues thoroughly, 
particularly through the hearing process. We began this process 
last Congress, and I am glad that we are taking another look at 
our Nation's limited English-proficient, LEP, students.
    Let us not lose sight of the fact that No Child Left Behind 
was crafted under the guiding principles that all students can 
and deserve to learn. LEP students are no exception. Because of 
that, under NCLB, schools are held to higher standards and held 
accountable for the academic achievement of all of the 
children, including LEP students.
    Indeed, the evaluation of this student subgroup is an 
essential component of our discussions going forward. As 
everyone here knows, the law makes it clear that LEP students 
should be tested in reading, language arts, and math as well as 
English language acquisition. At the same time, the law 
provides States and local school districts the flexibility to 
test these students in their native language for up to 3 years 
with an additional 2 years of native language assessment 
provided on a case-by-case basis.
    I look forward to hearing today's testimony on what is 
happening in the field at the State and local levels. I am 
particularly interested in learning what it is that is 
happening to help raise the student achievement of LEP 
students. I believe, as others have said, that the law has 
evolved past the compliance stage, and we now must focus on 
what we can do in the classroom to meet the agreed-upon goals 
of the law. I would also be interested in learning more about 
the implications of actions taken by the U.S. Department of 
Education and recommendations that these actions be codified in 
the reauthorization.
    Thank you for joining us so early this Friday morning. I 
look forward to your testimony.
    I yield back, Mr. Chairman.
    Chairman Kildee. Thank you, Governor.
    Without objection, all members will have 7 calendar days to 
submit additional materials or questions for the hearing 
record.
    I would like now to introduce the very distinguished panel 
we have with us this morning.
    Cornelia Ashby is the Director of Education, Workforce and 
Income Security Issues for the Government Accountability 
Office. Ms. Ashby joined GAO in 1973. In 1992, she was selected 
for the GAO Senior Executive Candidate Development Program, and 
in 1994, was appointed an Associate Director For Education and 
Employment Issues. She began her current position in 2000.
    Peter Zamora is co-chair of the Hispanic Education 
Coalition, which unites 25 local and national organizations in 
support of improved educational opportunities for Latino 
students and families. He is also Regional Counsel for the 
Mexican-American Legal Defense and Educational Fund and a 
former bilingual credentialed teacher in the California public 
schools.
    Dr. Beverly Young is the Assistant Vice Chancellor for 
Teacher Education and Public School Programs for the California 
State University System. She works to facilitate changes in 
teacher preparation within the 23-campus system. Prior to her 
work at the CSU Chancellor's Office, Dr. Young was a faculty 
member and teacher of education at California State University 
at Fullerton.
    Maria Guzman is the principal at Oyster Bilingual Public 
Elementary School in Washington, D.C. Oyster School is 
internationally known for its curriculum in which all students 
learn in both English and Spanish. In 2006, Oyster was named a 
No Child Left Behind Blue Ribbon School.
    Francisca Sanchez is Assistant Superintendent of Curriculum 
and Instruction in the San Bernardino County Superintendent of 
Schools Office in California. In 2002, she was named Inland 
Empire Educator of the Year. In 2003, she received the Valuing 
Diversity Award from the Association of California School 
Administrators.
    We welcome all of our witnesses, and we will begin with Ms. 
Ashby. First, I will explain the light system here. Some of you 
are familiar with it. The green light will be illuminated when 
you begin to speak, and when you see the yellow light, it means 
that you have 1 minute remaining, and when you see the red 
light, it means your time has expired, and you need to conclude 
your testimony. We will let you finish your paragraph or your 
thought, but do try to finish at that time. Please be certain, 
as you testify, that you turn the microphone on and pull it 
close to you and turn it off when you are finished.
    We will now hear from our first witness, Ms. Ashby.

    STATEMENT OF CORNELIA M. ASHBY, DIRECTOR OF EDUCATION, 
    WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Ashby. Mr. Chairman, and members of the subcommittee, I 
am pleased to be here this morning to present information from 
our July 2006 report on assessment of students with limited 
English proficiency.
    Title I of the No Child Left Behind Act requires States to 
test all students in certain grades in language arts and 
mathematics and use the results as the primary means of 
determining the annual performance of States, districts and 
schools. These assessments must measure students' knowledge of 
the content of the State's academic standards. States are to 
show that increasing percentages of students are reaching the 
proficient level over time. States and districts are also 
required to measure separately the progress of specific groups 
of students, including limited English proficient students.
    To make adequate yearly progress, each district and school 
must generally show that all students in each of the groups met 
the State's proficiency goal and that at least 95 percent of 
the students in each group participated in the assessments. 
Students with limited English proficiency did not meet State 
proficiency goals on language arts and mathematics tests in 
nearly two-thirds of the 48 States for which we obtained data.
    Title I requires that students with limited English 
proficiency receive reasonable accommodations and be assessed 
to the extent practicable in the language most likely to yield 
accurate data on their academic knowledge. However, for 
language arts, students with limited English proficiency who 
have been in U.S. schools for 3 years or more must generally be 
assessed in English.
    Title I also created a new requirement for States to 
annually assess the English language proficiency of all 
students identified as having limited English proficiency, and 
to clarify, ``English language proficiency'' is English 
proficiency in four areas--speaking, listening, reading, and 
writing.
    Title III requires States to establish goals to demonstrate 
annual increases in students making progress toward attaining 
English language proficiency. States must establish English 
language proficiency standards that are aligned with the 
State's academic standards in order to ensure the States are 
requiring the academic language they need. In addition, 
Education requires that the State's English language 
proficiency assessment be aligned to its English language 
proficiency standards.
    States have reported taking a number of steps to ensure the 
validity and reliability of academic assessments for students 
with limited English proficiency, but concerns remain. State 
efforts include ensuring that instructions, forms and questions 
are clear and not more linguistically complex than necessary, 
offering accommodations such as allowing students with limited 
English proficiency to use bilingual dictionaries and providing 
students extra time to complete tests and offering native 
language and alternative assessments.
    Despite these efforts, Education's peer reviews and a group 
of experts we convened raised concerns regarding State efforts 
to ensure valid and reliable assessments. For example, the 
experts indicated that States are generally not taking the 
appropriate set of comprehensive steps to create valid and 
reliable assessments for these students. In addition, according 
to these experts, in our review of literature, research is 
lacking on what specific accommodations are appropriate for 
students with limited English proficiency as well as their 
effectiveness in improving the validity of assessment results. 
Further, the experts expressed concern about the extent to 
which alternative assessments are objective and comparable and 
can be aggregated with regular assessments.
    With respect to English language proficiency assessments, 
in the 2005-2006 school year, 22 States used assessments or 
test items developed by 1 of 4 State consortia funded by 
Education. Eight States worked with test developers to augment 
off-the-shelf assessments to incorporate State standards. 
Fourteen States used off-the-shelf assessments, and seven 
States created their own. While States' test developers told us 
they developed these assessments using accepted practices, 
there was not sufficient evidence of their validity and 
reliability at the time of our review.
    Education has offered States a variety of technical 
assistance, including training, peer reviews and monitoring 
visits to help States assess students with limited English 
proficiency, but it has issued little written guidance on how 
States are to assess and track the English proficiency of these 
students.
    Education has also offered States some flexibility. For 
example, education does not require students with limited 
English proficiency to participate in a State's language arts 
assessment during their first year in U.S. schools. In 
addition, while these students must take a State's mathematics 
assessment during the first, a State may exclude their scores 
in determining whether it met its progress goals. Further, 
Education allows States to include for up to 2 years the scores 
of students who were formerly classified as ``English limited 
proficient'' when determining whether a State met its progress 
goals. Partly in response to recommendations in our 2006 
report, Education has also initiated a partnership with the 
States and other organizations to support the development of 
valid assessment options for students with limited English 
proficiency.
    Mr. Chairman, this completes my prepared statement. I will 
be glad to answer any questions.
    Chairman Kildee. Thank you very much.
    [The statement of Ms. Ashby follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Kildee. Mr. Zamora.

              STATEMENT OF PETER ZAMORA, CO-CHAIR,
                  HISPANIC EDUCATION COALITION

    Mr. Zamora. Chairman Kildee, Ranking Member Castle, thank 
you very much for the invitation to testify today regarding 
English language learners and the No Child Left Behind Act. 
Between 5 and 6 million ELLs are currently enrolled in U.S. 
public schools, constituting over 10 percent of our total 
student population, and experts predict that one-quarter of our 
student population will be made up of ELLs by 2025. The 
commonly held stereotype of ELLs as foreign-born immigrants is 
inaccurate. The majority are, in fact, U.S. citizens whose 
academic and linguistic needs are not being met by our public 
schools. Over three-quarters of ELLs are Spanish-speaking, and 
over two-thirds come from low-income families. ELL students' 
academic performance is well below that of their peers in 
nearly every measure of academic performance, and they drop out 
of school at higher rates than any other student subgroup.
    NCLB is a critically important Federal education 
integration and civil rights law for ELLs. It promises a 
measure of academic parity and addresses the effects of limited 
English proficiency upon academic performance. As written, No 
Child Left Behind adopts a sound approach to improving ELL 
student performance by addressing both academic ability and 
linguistic proficiency. Implementation failures have severely 
hindered No Child Left Behind's effectiveness for ELLs, 
however.
    As described by Ms. Ashby, States have not yet implemented 
valid and reliable assessments for ELLs, and the U.S. 
Department of Education has not yet provided enough technical 
assistance or guidance to the States in appropriate assessment 
policies and practices.
    Because current NCLB assessments do not generally yield 
sound data regarding ELL achievement, schools and school 
districts face major challenges both in demonstrating academic 
proficiency of ELLs and in designing interventions to raise ELL 
achievement to meet State targets. Work is currently underway, 
however, to improve the quality of testing systems for ELLs. 
MALDEF, NCLR, the Department of Education, and all 50 States 
have joined together in an LEP partnership to provide technical 
assistance in ELL assessment to the States. The partnership 
unites assessment experts, Federal and State officials and 
advocates to improve assessment practices for the 2006-2007 
testing cycle and to support the best practices for future 
years.
    Our efforts are beginning to yield results, but Congress 
must also support the use of valid and reliable assessments for 
ELLs. The Hispanic Education Coalition supports a dedicated 
funding stream under Title I to develop and implement 
assessments specifically designed to measure ELL content 
knowledge. The coalition also supports the increased use of 
native language content assessments for ELLs which are 
currently required under NCLB when practicable. Sound 
assessments for ELLs are required not only by NCLB and by sound 
education practice, but also by the Supreme Court's decision in 
Lau versus Nichols, which held that Title VI of the Civil 
Rights Act requires academic services for ELLs that are 
tailored to their language abilities and to their academic 
needs.
    Inaccurate data currently make it difficult if not 
impossible to use test scores to evaluate the effectiveness of 
NCLB for ELLs. It is clear, however, that NCLB has increased 
the pressure at every level of our education system to improve 
results for ELLs, and this is clearly a step in the right 
direction. The poor achievement levels of ELLs were a well-kept 
secret prior to NCLB, and this, thankfully, is no longer the 
case. NCLB has not, unfortunately, led to the universal 
implementation of the best instructional practices for English 
language learners. Oyster Bilingual Elementary School here in 
Washington, D.C. is a prime example of the effectiveness of 
dual language immersion programs, for example, in helping both 
ELLs and non ELLs reach academic proficiency. We need more 
programs like Oyster's, programs that meet the needs of all 
students, including ELLs.
    To thrive in U.S. public schools, ELL students also require 
teachers trained to meet their academic needs as Dr. Young will 
testify. NCLB must do more to encourage the certification of 
teachers trained to work with ELLs and to support professional 
development for all teachers who teach ELL students. For NCLB 
to reduce or to eliminate the achievement gaps that belie our 
Nation's commitment to universal educational opportunity, the 
officials at all levels of government must better serve our 
large and growing ELL student population. If English language 
learners in our public schools are not appropriately assessed 
and do not improve their achievement levels, No Child Left 
Behind will not meet its goals, and our Nation, as a whole, 
will suffer.
    Thank you very much.
    Chairman Kildee. Thank you, Mr. Zamora.
    [The statement of Mr. Zamora follows:]

             Prepared Statement of Peter Zamora, Co-Chair,
                      Hispanic Education Coalition

    Chairman Kildee, Ranking Member Castle, I am Peter Zamora, 
Washington D.C. Regional Counsel for the Mexican American Legal Defense 
and Educational Fund (MALDEF). I serve as Co-Chair of the Hispanic 
Education Coalition, which unites 25 national and local organizations 
in support of improved educational outcomes for Latino students and 
families. I appreciate the invitation to testify today regarding 
English language learners (ELLs) and the No Child Left Behind Act 
(NCLB).
ELL Student Demographics
    There are currently between 5 and 6 million English language 
learners enrolled in U.S. public schools, constituting over 10% of our 
total public school population.\1\ Over the past fifteen years, ELL 
student enrollment has nearly doubled, and experts predict that one-
quarter of the total U.S. public school population will be made up of 
ELLs by 2025.\2\
    ELLs' academic performance levels are significantly below those of 
their peers in nearly every measure of academic performance. In the 
2005 National Assessment of Educational Progress, for example, only 29% 
of ELLs scored at or above the basic level in reading, compared with 
75% of non-ELLs.\3\ ELLs drop out of school at very high rates: Latino 
ELLs aged 16-19, for example, have a 59% dropout rate.\4\ In order to 
optimize the skills of our future workforce, our public schools clearly 
must do a better job in meeting the needs of our large and growing ELL 
student population.
    Despite common assumptions to the contrary, native-born U.S. 
citizens predominate in the ELL student population: 76% of elementary 
school and 56% of secondary school ELLs are citizens, and over one-half 
of the ELLs in public secondary schools are second- or third-generation 
citizens.\5\ The stereotype of ELLs as foreign-born immigrants is, 
therefore, inaccurate: the majority are, in fact, long-term ELLs whose 
academic and linguistic needs are not being met by our public school 
system. Two-thirds of ELLs come from low-income families.\6\ Over 
three-quarters of ELLs are Spanish-speaking, and nearly half of K-12 
Latino students are ELLs.\7\
Inappropriate Assessments Hinder the Effective Operation of No Child 
        Left Behind for English Language Learners
    No Child Left Behind is perhaps the most significant federal 
education, integration, and civil rights statute for English language 
learners. NCLB promises ELLs a measure of academic parity with their 
peers and intends to address the effects of limited English proficiency 
upon academic performance.
    As written, NCLB adopts a sound approach to improving ELL student 
achievement. ELLs face the dual challenge of learning English while 
simultaneously gaining academic knowledge in an unfamiliar language. 
NCLB addresses each aspect of this challenge: Title I requires 
accountability for the content knowledge of the ELL subgroup, while 
Title III requires accountability for English language acquisition.
    Significant implementation failures by federal and state agencies 
have severely hindered the effectiveness of NCLB for ELLs, as described 
in the U.S. Government Accountability Office report that is the subject 
of Ms. Ashby's testimony today. Specifically, states have not yet 
implemented valid and reliable Title I or Title III assessments for 
ELLs, and the U.S. Department of Education has not yet provided 
sufficient technical assistance or guidance to the states in the 
development of appropriate assessment policies and practices.
    Because current NCLB assessments do not yield sound data regarding 
ELL student achievement, schools and school districts face significant 
challenges both in demonstrating ELL academic proficiency and in 
designing interventions to raise ELL academic achievement levels to 
meet state performance targets. No Child Left Behind implementation has 
failed English language learners at the first step of standards-based 
accountability: that of effective data collection.
Recent, Ongoing Measures to Improve Assessments for English Language 
        Learners
    In order for NCLB to be fully effective, ELL students require 
assessments tailored to their specific academic and linguistic needs. 
This is required not only by NCLB and by sound educational practice, 
but by the Supreme Court's decision in Lau v. Nichols.\8\ Lau held that 
Title VI of the Civil Rights Act of 1964 requires schools to deliver 
academic services to ELLs that are tailored to their linguistic 
abilities and academic needs.
    Although the NCLB requirement for valid and reliable assessments 
for all students originated in the Improving America's Schools Act of 
1994, the U.S. Department of Education (ED) has only recently begun to 
enforce these provisions as they relate to ELL students. ED has also 
recently embarked upon a long-overdue project to provide technical 
assistance to states in developing and implementing appropriate 
assessment policies and practices for ELL students. MALDEF has strongly 
supported ED's recent efforts to enforce NCLB for ELLs and to provide 
technical assistance to states.
    In August of 2006, MALDEF, the National Council of La Raza, the 
U.S. Department of Education, and education officials from all 50 
states launched the ``LEP Partnership'' to provide technical assistance 
in appropriate ELL assessment practices to the states. The LEP \9\ 
Partnership unites assessment experts, federal and state officials, and 
advocates in an unprecedented collaborative. Our focus is to improve 
assessment practices for the 2006-07 testing cycle and to support the 
best ELL assessment practices for future years. The next LEP 
Partnership meeting will be held in Washington, D.C. in July of 2007.
    Our efforts are beginning to yield results, but Congress must 
provide additional support to states in the development and 
implementation of appropriate academic and linguistic assessments for 
ELLs. The Hispanic Education Coalition supports a dedicated funding 
stream under Title I to develop valid and reliable content assessments 
for ELLs.
    The technical expertise needed to develop and implement sound 
assessments for ELLs exists, but thus far we have not generally seen 
the necessary will or resources at the state and federal levels. Both 
the federal government and the states must do much more to implement 
native language, simplified English, portfolio, and other assessments 
designed specifically to measure ELLs' academic knowledge and English 
proficiency.
    The Hispanic Education Coalition strongly supports increased 
development and use of native language content assessments for ELLs, 
which are currently required under NCLB when practicable. Because over 
three-quarters of ELLs are Spanish-speaking, it is generally 
practicable for states to develop Spanish-language assessments to 
appropriately measure the academic achievement levels of the 
significant majority of ELLs who are Spanish-speaking.
The Impact of NCLB upon English Language Learners
    Inaccurate data generated by state assessments make it difficult if 
not impossible to use assessment-based measures of academic performance 
to evaluate the general effectiveness of NCLB for ELLs. It is quite 
clear, however, that NCLB has focused increased attention upon the 
academic and linguistic concerns of ELLs. The poor academic achievement 
levels of ELLs were generally a well-kept secret prior to NCLB; this, 
thankfully, is no longer the case. NCLB has increased the pressure at 
every level of our education system to improve results for ELLs, and 
this is clearly a step in the right direction for a student population 
that has historically existed in the shadows of the U.S. public 
education system. NCLB has, in effect, empowered federal, state, and 
local officials charged with improving academic outcomes for ELLs.
    NCLB has not, unfortunately, led to the universal implementation of 
the best research-based instructional practices for English language 
learners. A considerable body of education research on ELL student 
achievement demonstrates that 1) native language instruction 
significantly improves ELLs' academic achievement in English and 2) 
ELLs require specific instructional accommodations designed to minimize 
the effects of English proficiency upon academic achievement.\10\ 
Despite this body of research, ELLs nationwide are currently enrolled 
in a patchwork of instructional programs, many of which do not reflect 
the best instructional practices for this student population.\11\
    Oyster Bilingual Elementary School here in Washington, D.C. is a 
prime example of the effectiveness of dual-language immersion programs 
in helping both ELLs and non-Ells reach academic proficiency. Oyster 
Elementary is the sole school in the District of Columbia to be 
designated a No Child Left Behind Blue Ribbon School by the U.S. 
Department of Education in 2006.\12\ Far too often, misguided cultural 
and linguistic protectionism and a divisive political atmosphere 
inhibit the implementation of the best instructional practices for 
ELLs. Dual-language immersion programs do not encourage cultural or 
linguistic separatism in ELLs, who clearly understand the need to learn 
English in order to succeed in U.S. schools and society; rather, these 
programs reflect best instructional practices and speed ELLs' 
development of English language and academic skills and contribute to 
the integration of ELLs into mainstream U.S. society.
    As Dr. Beverly Young from the California State University system 
has testified, ELL students require teachers trained to meet their 
particular academic needs in order to thrive in U.S. public schools. 
Unfortunately, a significant shortage of teachers trained to deliver 
dual-language and other tailored methods of instruction for ELL 
students persists. NCLB must do more to encourage the development of a 
teaching corps that is well trained to work effectively with our large 
and rising ELL student population.
Conclusion
    For NCLB to reduce or eliminate academic achievement gaps, 
officials at all levels of government--federal, state, and local--must 
commit to better serving the ELL student population. If the large and 
growing population of English Language Learners in our public schools 
does not improve its academic achievement levels, NCLB will not meet 
its goals and our nation's economic competitiveness will suffer.
    MALDEF and the Hispanic Education Coalition advocate the following 
recommendations to address the No Child Left Behind Act implementation 
concerns described in my testimony today:
    1) The U.S. Department of Education must fully enforce NCLB 
assessment provisions for ELLs and provide effective and ongoing 
technical assistance in the development of appropriate assessments to 
state education agencies;
    2) States must focus attention and resources upon developing and 
implementing valid and reliable content assessments for ELLs, 
preferably in the native language;
    3) A reauthorized NCLB should establish a separate funding stream 
to assist states in developing and implementing appropriate academic 
assessments for ELLs;
    4) A reauthorized NCLB should require that states that have 
significant ELL populations from a single language group develop valid 
and reliable content assessments designed specifically for members of 
that language group;
    5) States, schools and school districts must implement the best 
instructional practices that will provide ELL students with the best 
opportunities to develop both English proficiency and content area 
knowledge;
    6) The federal government and states must allocate significant 
resources to support the certification of teachers trained in best 
instructional practices for ELLs;
    7) The federal government, states, school districts, and schools 
must allocate resources for the professional development in the best 
instructional practices for ELLs for all teachers who teach ELL 
students;
    8) The federal government must fund scientifically-based research 
and disseminate findings on best effective practices for ELL student 
instruction; and
    9) Federal, state, and local school officials must ensure that ELLs 
are fully and appropriately included in NCLB accountability systems so 
that schools focus upon meeting the academic needs of ELLs.
                                endnotes
    \1\ See, e.g., http://www.ncela.gwu.edu/expert/faq/08leps.html.
    \2\ See http://www.ncela.gwu.edu/expert/faq/08leps.html; http://
www.ed.gov/nclb/methods/english/lepfactsheet.html.
    \3\ National Center for Education Statistics, National Assessment 
of Educational Progress (NAEP): Reading and Mathematics, Washington, DC 
(available at http://nces.ed.gov/nationsreportcard/nrc/reading--math--
2005/).
    \4\ See Fry, R., Hispanic Youths Dropping Out of Schools: Measuring 
the Problem, Washington, DC: Pew Hispanic Center (2003), p8.
    \5\ See, e.g., Capps, R., Fix, M., Murray, J., Ost, J., Passel, J., 
& Herwantoro, S., The New Demography of America's Schools: Immigration 
and the No Child Left Behind Act, Washington, D.C.: The Urban Institute 
(2005), p18.
    \6\ Id. at 25.
    \7\ See http://www.ncela.gwu.edu/expert/fastfaq/4.html; see 
Lazarin, M., Improving Assessment and Accountability for English 
Language Learners in the No Child Left Behind Act, Washington, D.C.: 
National Council of La Raza (2006), p1.
    \8\ 414 U.S. 563 (1974).
    \9\ ``LEP'' is an acronym for ``Limited English Proficient,'' which 
is synonymous with ``English language learner.''
    \10\ See, e.g., Goldenberg, C., Improving Achievement for English 
Language Learners: What the Research Tells Us, Education Week, Vol. 25, 
Issue 43, pp34-36 (July 26, 2006). Appropriate educational 
accommodations for ELLs include: strategic use of the native language; 
predictable, clear, and consistent instructions, expectations, and 
routines; identifying and clarifying difficult words and passages; 
paraphrasing students' remarks; and other measures designed to minimize 
the effect of limited English proficiency upon academic achievement.
    \11\ U.S. Government Accountability Office, No Child Left Behind 
Act: Education's Data Improvement Efforts Could Strengthen the Basis 
for Distributing Title III Funds, GAO-07-140, December 2006, p32 
(available at http://www.gao.gov/new.items/d07140.pdf).
    \12\ The No Child Left Behind Blue Ribbon Schools Program honors 
public and private K-12 schools that are either academically superior 
in their states or that demonstrate dramatic gains in student 
achievement. See http://www.ed.gov/programs/nclbbrs/2006/index.html.
                                 ______
                                 
    Chairman Kildee. Dr. Young.

   STATEMENT OF BEVERLY YOUNG, ASSISTANT VICE CHANCELLOR FOR 
TEACHER EDUCATION AND PUBLIC SCHOOL PROGRAMS, CALIFORNIA STATE 
                       UNIVERSITY SYSTEM

    Ms. Young. Good morning, Chairman Kildee, Ranking Member 
Castle, subcommittee members. Thank you for inviting me to 
discuss NCLB, and specifically the preparation of teachers to 
address the needs of English language learners.
    I am here on behalf of the California State University, the 
largest and most diverse 4-year university system in the 
country--23 campuses, approximately 417,000 students. We 
currently award about 13,000 teacher credentials every year, 
which represents about 60 percent of California's teachers, 
which translates to 10 percent of the Nation's teachers who 
come from the CSU.
    Chancellor Charles Reed has made teacher quality 
preparation one of the highest priorities of our system. We 
play a particularly significant role in the preparation of 
teachers to work with English language learners due to the 
large concentration of California students with primary 
languages other than English. I will focus my testimony on the 
role played by CSU with equipping teachers to meet this 
challenge, both through pre service programs and through 
professional development.
    Already one-quarter of the students in California's K-12 
schools, about a million and a half students, are English 
language learners. They are distributed across the regions of 
California. Our campuses that prepare teachers are all working 
with candidates who will teach substantial numbers of ELLs. 
Approximately 85 percent of the ELLs in California are Spanish 
speakers, but the other 15 percent come from among 55 different 
language backgrounds.
    The preparation of new teachers to be effective in working 
with ELLs is not a new priority for the CSU. As long as 10 
years ago, California's ELL population had already exceeded 1.3 
million in California. Building on the commitment of our system 
and its faculty to address the needs of ELLs, we have developed 
a range of best practices for teacher preparation and 
professional development. Our programs infuse techniques for 
working with English language learners throughout every part of 
the curriculum in order to adequately prepare our graduates.
    Examples of CSU activities that are effective and 
applicable to other programs across the country are evident at 
every campus. For example, at Fresno, ELL pedagogy is infused 
into every course in the pre service program. It is assumed 
that every California teacher will be an English language 
learner teacher, and all must be prepared to meet this 
challenge.
    Another example is the design of CalState TEACH, our 
statewide site-based preparation program. CalState TEACH uses a 
customized lesson planning, online tool that structures every 
candidate's lessons to ensure appropriate attention to the 
needs of English language learners.
    At CalState San Bernardino, one of the fastest growing 
populations in the State, faculty have developed a quick 
reference handbook for teaching English language learners, an 
interactive Web tool that enables candidates to identify a 
range of instructional strategies for a variety of English 
development levels represented by students. The handbook is 
aligned with our State's academic content standards as well as 
to the needs of English language learners, and was developed in 
collaboration with local school districts.
    At Sonoma State, for example, faculty have designed a 
program sequence that leads students through an increasingly 
complex set of strategies for assisting ELLs, including field-
based assignments, case studies, teaching assessment and 
evaluation.
    My last example would be from CSU San Marcos, which is 
located in the far southern region of California with a very 
large population of English language learners. In addition to 
other strategies, CSU San Marcos students are paired with K-12 
school staff to provide extra services and tutoring to ELL 
students. Candidates visit schools in nearby Mexico to better 
understand cultural and schooling issues in context related to 
students who then come to California schools.
    In addition, our campuses also employ the best practices 
for use in preparing new teachers for professional development 
for current teachers. Our professional development programs 
addressing the needs of English language learners are in a 
variety of curriculum areas--writing, reading, literature, 
history, social studies, math, science, and the arts. As has 
already been stated here, English is critically important, but 
it is also important to facilitate student content learning 
while they acquire English language skills.
    As to specific recommendations for the reauthorization of 
No Child Left Behind pertaining to teacher preparation in 
English language, we have two recommendations. First, we 
believe the national professional development funding should be 
increased significantly. In this program, institutions of 
higher ed provide pre service and professional development for 
teachers in partner high schools. We think this funding should 
be expanded. Second, we would recommend the scope of the 
national professional development program be expanded to 
include activities that allow school teams of teachers and 
administrators to help develop systems and structures to 
successfully close achievement gaps for English language 
learners.
    I have more, but my red light is on, so I will stop.
    Thank you.
    Chairman Kildee. Thank you very much.
    Of course, all of your testimony will be included in the 
record.
    [The statement of Ms. Young follows:]

Prepared Statement of Beverly Young, Ph.D., Assistant Vice Chancellor, 
          Academic Affairs, California State University System

Introduction
    Chairman Kildee, Ranking Member Castle, and subcommittee Members, 
thank you for inviting me to discuss No Child Left Behind (NCLB) and 
the preparation of teachers to address the needs of English Language 
Learners (ELLs). The focus of my testimony will be on the role of the 
California State University (CSU) in pre-service preparation and 
professional development for California teachers that equips them to 
meet this challenge. The CSU thanks the Committee for its attention to 
this critically important area.
The California State University
    The CSU is the largest and most diverse four-year university system 
in the country, with 23 campuses, approximately 417,000 students and 
46,000 faculty and staff. The CSU's mission is to provide high-quality, 
accessible education to meet the ever-changing needs of the people of 
California. Since the system's creation in 1961, it has awarded about 2 
million degrees. We currently award approximately 84,000 degrees and 
13,000 teacher credentials each year. Few, if any, university systems 
match the scope of the CSU system in the preparation of teachers.
    One key feature of the CSU is its affordability. For 2006-07, the 
CSU's systemwide fee for full-time undergraduate students is $2,520. 
With individual campus fees added, the CSU's total fees average $3,199, 
which is the lowest among any of the comparison public institutions 
nationwide. A consequence is that many of our students are first-
generation college-goers. A substantial number of the future teachers 
we prepare were themselves ELLs and have brothers, sisters, nieces, and 
nephews who also began school in this group of learners.
    Close to sixty percent of the teachers credentialed in California 
(and ten percent of the nation's teachers) each year are prepared by 
the CSU. Chancellor Charles Reed and the CSU Board of Trustees have 
made quality teacher preparation one of the highest priorities of the 
system. Following a decade of unprecedented growth and reform in public 
K-18 education, the CSU Board of Trustees in 1998 embraced systemwide 
efforts to improve teacher preparation in a policy entitled CSU's 
Commitment to Prepare High Quality Teachers.
The California State University and the Preparation of Teachers of 
        English Language Learners
    The CSU plays a particularly significant role in the pre-service 
preparation of teachers to work with ELLs due to the large 
concentration in California of students with primary languages other 
than English. In addition, CSU and its campuses are involved in many 
professional development programs in which teachers of ELLs are 
equipped with new skills and techniques based on the most current 
research on effective instructional and school improvement strategies.
What Has the Impact of NCLB Been on CSU's Work Related to English 
        Language Learners, including its Preparation and Professional 
        Development of Teachers?
    It is important to recognize that 24.9% of the students in 
California's K-12 public schools--1,570,424 students--are ELLs, and 
that they are no longer concentrated in a few locations in the state. 
They are distributed across the regions of California, and all of our 
22 campuses that prepare teachers are preparing candidates who will 
teach substantial numbers of ELLs. Approximately 85% of ELLs in the 
state are Spanish speakers. The other approximately 15% come from 55 
different language backgrounds.
    As a consequence, the preparation of our teacher candidates to be 
effective in working with ELLs is a major focus within the CSU system. 
It is not a new priority. Ten years ago, the population of ELLs had 
already reached 1,323,767. For almost two decades, meeting the 
academic, social, and emotional needs of ELLs has been a priority 
within the CSU in preparing future teachers and in professional 
development that serves current teachers in the state.
    CSU faculty are some of the nation's foremost experts in 
preparation and professional development of teachers who work with 
ELLs. The Center for Language Minority Education and Research at CSU 
Long Beach, for example, has conducted pioneering research on improving 
achievement of these students. Its Director, Dr. Claude Goldenberg, is 
widely recognized for his significant contributions to the analysis of 
instructional conversations, the impact of school settings on improving 
achievement, and effective approaches for involving families of ELLs in 
their children's education.
    Similarly, at CSU Fullerton, Dr. David Pagni is nationally 
recognized for his leadership in developing techniques and strategies 
that prepare mathematics teachers to be successful in working with 
ELLs. For more than 15 years, he has been preparing future and current 
teachers in these strategies for teaching mathematics that enable 
students to achieve mastery of advanced mathematical content regardless 
of English language status. Partnering with the parents and the 
community, a hallmark of his work, includes families in activities that 
enable the students to demonstrate and share their skills with their 
parents. This has been shown typically to result in new understandings 
of the possibilities available to these students and to increase 
educational and career aspirations that are shared by the entire 
family.
    There are dozens of additional examples of CSU faculty who have 
been leaders for many years in research and professional development of 
teachers to work successfully with ELLs. The expertise of CSU faculty 
extends to ELLs with a broad range of primary languages.
    A notable effect of NCLB on our preparation of teachers pertains to 
the environment in which our preparation activities occur. Many of our 
partner school districts are struggling to meet Adequate Yearly 
Progress (AYP) targets for ELLs. The result is that they want to hire 
new teachers with skills to help students achieve state standards and 
benchmarks and want assistance in providing professional development 
for current teachers. Our commitment to this area finds support among 
school district partners, who welcome our efforts and communicate to 
future teachers the criticality of their developing knowledge and 
expertise in working with ELLs.
    Another impact of NCLB on the CSU as well as our K-12 partners has 
related to the assessment of ELLs. It is well known that the 
accountability provisions of NCLB have increased the attention focused 
on valid approaches for measuring achievement and achievement gains of 
ELLs. CSU faculty members in education work closely with local school 
districts. For many of these districts, this is among the most 
challenging NCLB issues they face. The teachers and school leaders we 
prepare learn about the care needed in developing approaches for 
testing and accountability to ensure they work in the positive ways 
that were intended in the legislation. As is widely recognized, much 
remains to be done in this area.
What are Examples of CSU Best Practices in Teacher Preparation Related 
        to English Language Learners?
    Due to its size and the commitment of the system and many of its 
faculty to addressing the needs of ELLs, CSU has developed a range of 
approaches that are examples of Best Practices in teacher preparation 
and professional development. Earlier this month, the system held a 
Professional Development Workshop for 300 CSU faculty involved in 
teacher preparation. A number of issues were identified for focus, and 
faculty from throughout the state came together to share Best Practices 
in these areas. Preparing candidates to work with ELLs was one of the 
targeted priorities. Earlier this year, CSU Deans of Education had 
similarly exchanged information about particularly effective approaches 
for meeting the needs of these students. From these two sets of 
exchanges, I have selected a few examples of excellent model approaches 
to highlight.
Infusion of Strategies Throughout the Curriculum: CSU Fresno and 
        CalStateTEACH
    California State University, Fresno faculty believe that effective 
strategies must be infused throughout every part of the curriculum in 
order to adequately prepare graduates who will teach in a region with 
one of the largest percentages of ELLs in the state. In its pre-service 
program, the College of Education integrates, in every course and every 
aspect of teacher preparation, attention to key issues and approaches 
for meeting the needs of ELLs.
    Areas that are given attention throughout the entire curriculum 
include, for example:
    <bullet> Students' identity and culture
    <bullet> First and second language acquisition theory and research 
and implications for classroom instruction
    <bullet> English Language Development (ELD) levels, assessment, 
program options, and effective strategies
    <bullet> Content area instruction using Specially Designed Academic 
Instruction in English
    <bullet> Socio-cultural contexts of language learning
    <bullet> Development and use of culturally responsive curriculum
    <bullet> Policies and demographic trends affecting programs for 
English learners
    <bullet> Advocacy for ELLs and creating changes in attitudes and 
expectations
    <bullet> Analysis of students' funds of knowledge and overcoming 
deficit models of poverty
    <bullet> Approaches for parent involvement that enhance student 
performance
    <bullet> Reflection as an ongoing aspect of teaching and 
professional practice.
    Approaches for preparing future teachers to work with ELLs that 
infuse principles and practices throughout the curriculum are 
characteristic of CSU education programs. The statewide site-based 
online CalStateTEACH program uses this model and has been particularly 
effective in preparing candidates to work productively with ELLs. 
CalStateTEACH is a non-traditional program that offers qualified 
candidates the opportunity to earn their credential without attending 
customary college classes. It is a true field-based model, in which 
teacher candidates learn how to teach in public school classrooms where 
university faculty and school site mentors observe them teaching. 
CalStateTEACH offers a spiraling, integrated curriculum that includes 
learning theories, pedagogical approaches, and classroom management 
across the curriculum.
    In preparing candidates to teach ELLs effectively, CalStateTEACH 
infuses the requisite knowledge, skills, and abilities throughout the 
program. A customized lesson planning tool has been developed so that 
at each step in the lesson planning and delivery process, teacher 
candidates see a ``prompt'' that ensures the appropriate activities are 
differentiated in order to meet the needs of ELLs. For example, in the 
first step of the lesson planning process, teacher candidates are asked 
to describe the students they are teaching. In addition to being asked 
for the contextual factors, such as students' developmental 
characteristics, preferences and perspectives, candidates are also 
asked to identify language proficiency levels for ELLs.
Exemplary Resource Materials for New Teachers: CSU San Bernardino
    California State University, San Bernardino is in a region of 
California in which many districts have K-12 student populations where 
more than 30% of K-12 students are ELLs. It is the region of the 
largest population increase in the State, and the K-12 population 
growth has been disproportionately large among ELLs. It is predicted 
that these trends will continue for at least the next two decades. The 
faculty members have provided to teacher candidates a Quick Reference 
Handbook for Teaching English Learners. It is an interactive tool on 
the World Wide Web that enables teacher candidates to identify a range 
of instructional strategies appropriate for K-12 students at different 
English Language Development levels.
    The Handbook is focused on helping new teachers align their 
instructional strategies to state academic content standards and to the 
needs of ELLs. The goal is to equip teacher candidates with approaches 
for making instruction comprehensible and engaging to these students. 
The Handbook includes teaching strategies that can be used across grade 
levels and across curriculum content areas.
    The strategies included in the Handbook were developed through a 
partnership with a local school district. Teachers developed a bank of 
strategies based on the evidence of success from their classrooms. The 
Handbook is built on the recognition that teaching is a complex event 
and that teachers make on-the-spot decisions in hundreds of teaching 
situations daily. The purpose of the Quick Reference Handbook is to 
give teachers an easy-to-use tool that supports their decision-making 
in planning and teaching lessons.
    The instructional strategies in the Handbook are divided into five 
stages that reflect theory and research in the field of second language 
acquisition and education of ELLs. Studies over many years support the 
concept of a continuum of learning, with predictable and sequential 
stages of language development, progressing from little or no knowledge 
of English to the proficiency of native speakers. The stages used in 
this resource tool match the stages of the California English Language 
Development Test (CELDT), which is used to assess the language 
development of ELLs as required by NCLB.
    Students in California who are identified as ELLs are tested at the 
beginning of the school year with the CELDT instrument. The results 
place the students in one of five categories: Beginner, Early 
Intermediate, Intermediate, Early Advanced, or Advanced, which reflect 
movement from being an English Language Learner to Fluent in English 
Proficiency. Classroom teachers receive the assessment results for each 
English Language Learner in a report, telling them which students have 
been determined to be in each of the categories from Beginner to 
Advanced.
    The Handbook is designed to introduce new teachers to a broad array 
of approaches for increasing comprehension and interest and for 
advancing thinking and study skills among ELLs. Research-based 
strategies include effective uses of hands-on learning and realia, 
cooperative grouping and learning, pre-teaching of vocabulary, and 
using visual aids and graphic organizers. The Handbook is designed as a 
bank of adaptation strategies that aid new teachers and are also useful 
for experienced teachers in broadening their repertoire of 
instructional techniques for ELLs.
Specially Designed Coursework: Sonoma State University
    The Sonoma State University School of Education has developed a 
sequence of activities that introduces teacher candidates as they move 
through their teacher preparation to an increasingly complex set of 
strategies for assisting ELLs. Four different courses in the teacher 
preparation program have a primary emphasis on working effectively with 
ELLs:
    <bullet> Teaching Second Language Learners (EDMS 411)
    <bullet> Reading and Language Arts for Younger Students (EDMS 463)
    <bullet> Reading and Language Arts for Older and Struggling Readers 
(EDMS 464)
    <bullet> Language and Literacy Across the Curriculum (EDSS 446)
    Each of these courses requires candidates to prepare, teach, 
evaluate and reflect on lessons that incorporate current theories and 
best practices for teaching ELLs.
    In Teaching Second Language Learners, candidates complete field-
based assignments, including a case study, in which they employ the 
California English Language Development Test (CELDT) and must design, 
teach and evaluate English Language Development (ELD) lessons, and 
Specially Designed Academic Instruction in English (SDAIE) 
interdisciplinary thematic units.
    Through Reading and Language Arts for Younger Students, candidates 
learn about the structure and functions of language, both oral and 
written, and design lessons that allow all learners to participate, 
regardless of ability or home language. Candidates conduct a classroom 
environment analysis, using a number of tools, including one that 
focuses their attention on how the environment supports ELLs.
    In Reading and Language Arts for Younger Students, candidates 
create three lesson plans: one focusing on reading, one on writing, and 
one that connects literacy and the arts. Each lesson plan needs to 
reflect ways in which all learners, and particularly ELLs, are 
included, with high expectations for their achievement.
    At the time they take Reading and Language Arts for Older and 
Struggling Readers, candidates are typically doing their student 
teaching in a linguistically diverse classroom. They complete a class 
profile that examines students' interests, reading and writing 
abilities, and reading and writing attitudes. The course focuses on 
creating learner-centered literacy experiences for all learners, 
including a focus on ELLs.
    Opportunities to work with ELL students are among the criteria used 
in establishing field experiences for this and other courses as well as 
student teaching placements. In their portfolios, candidates include 
reflections about their experiences working with ELLs.
    In Language and Literacy Across the Curriculum, candidates develop 
and teach Sheltered Instruction lessons in their subject areas that 
include specific strategies and methods for adapting instruction to 
meet the needs of ELLs. Candidates carry out a case study focused on an 
English Language Learner at the site of their field placement. The case 
study includes conversations and formal interviews with the student, 
with content area teachers and with the English Language Development 
(ELD) teachers who work with the student, and results in an analysis of 
ways in which the academic needs of the student are or are not being 
met.
    These assignments contribute to the performance assessments of 
candidates in the credential programs. Candidates must pass these 
performance assessments in order to continue to progress in and 
successfully complete their credential program. Field placement 
performance evaluations and portfolio reviews incorporate items related 
to candidates' effectiveness in working with ELLs. Candidates' ability 
to work effectively with ELLs is one of the key culminating assessments 
in the credential programs.
A Variety of Preparation Approaches: California State University San 
        Marcos
    At California State University, San Marcos, addressing the needs of 
ELLs has been a priority and a focus since the founding of the 
university. Located in northern San Diego County with a growing number 
of ELLs, the university has responded to this need in a number of ways.
    Within the College of Education's teacher preparation program, 
strategies for helping English Only teachers work effectively with ELLs 
has been stressed, as many of the teacher candidates are English Only 
speakers who will be addressing multiple languages in their classrooms. 
All classes stress Specially Designed Academic Instruction in English 
(SDAIE) with a focus on learning content and English simultaneously. 
Within this structure, teacher candidates are expected to modify all 
lessons and instructional plans in their teaching methods classes to 
meet the needs of ELLs. To achieve this, a universal lesson-planning 
guide has been developed by the faculty to use in all courses. This 
ensures that teacher candidates have an effective model to follow as 
they modify and adjust their instructional strategies.
    Additionally, a required course focuses solely on the needs of ELLs 
and how to develop SDAIE lesson plans that are effective, use the 
primary language when appropriate for concept understanding, and 
scaffold instructional material and content for ease of understanding 
and learning. Furthermore, the candidates are taught how to use the 
CELDT results, write lessons at various levels of intervention, and use 
multiple measures of assessment to monitor mastery of concepts as well 
as English development. In addition, San Marcos has a strong bilingual 
cohort with an enrollment of more than 50 candidates who are interested 
in obtaining their Bilingual credentials to work in area schools that 
are offering dual language programs.
    The College of Education has also worked closely and diligently 
with area schools that are struggling with meeting achievement 
objectives for ELLs, in both dual immersion and English Only settings. 
Two cohorts of future elementary teachers are taught on campuses of 
high-need schools, and the student teachers work with the staff to help 
provide extra services and tutoring, primarily to ELLs. In this model, 
the College has the opportunity to guide and instruct future teachers 
on effective strategies as it simultaneously provides needed resources 
to the school.
    Since more than 80% of all English learners are Spanish speakers, 
the College of Education has also developed close ties with the Sistema 
Educativo Estatal de Baja California. This provides candidates 
opportunities to visit schools in Tijuana, understand the school system 
in Mexico, experience effective strategies for working with ELLs first-
hand, and gain an appreciation of the complexities of the neighboring 
school systems.
What are Examples of CSU Best Practices in Teacher Professional 
        Development Related to English Language Learners?
    CSU campuses employ the many exemplary approaches they use in 
preparing new teachers to work effectively with ELLs in providing 
professional development for current teachers. CSU campuses provide 
professional development programs addressing needs of ELLs in all 
curriculum areas: writing, reading and literature, history and social 
science, mathematics, science, and the arts. We are assembling 
information about the full range of these activities for the Committee.
    In addition, through the Early Assessment Program (EAP), the CSU 
has led the nation in efforts to better prepare high school students to 
meet the expectations they will face in college and the workplace in 
English and mathematics. The EAP gives high school students the 
opportunity to learn about their readiness for college-level study or 
entrance into the workforce through an assessment linked to the 11th 
grade statewide testing program. Legislation has been introduced to use 
the EAP at the California Community Colleges as well as the CSU. The 
techniques it employs can help guarantee that No Child is Left Behind 
in pathways to college--that no secondary student lacks the opportunity 
to become prepared for post-secondary education.
    The EAP includes three major literacy components:
    <bullet> Assessment of English and mathematics readiness of high 
school juniors for college and the workplace
    <bullet> A high school Expository Reading and Writing Course 
designed to foster students' skills in English
    <bullet> Professional development for teachers in which they learn 
to advance academic literacy.
    The EAP English professional development emphasizes academic 
literacy, critical thinking, and expository reading and writing. 
Teachers learn to help their students develop effective reading and 
writing skills for use in interpreting and producing written 
communications intended to inform, describe, and explain. These are 
skills in which many high school students currently receive limited 
explicit instruction.
    The CSU provides two types of EAP professional development for 
English teachers: four-day workshops offered with County Offices of 
Education, and intensive Reading Institutes for Academic Preparation 
that consist of 80 hours of professional development and involve 
participation in Summer Institutes focused on academic literacy.
    As they participate in these programs, teachers develop a 
repertoire of academic literacy instructional skills that are relevant 
to preparing secondary ELLs to become college-bound, particularly those 
on their way to becoming Fluent in English Proficiency. These skills 
are employed by teachers as they later teach the Expository Reading and 
Writing Course in their classrooms. They include, for example, 
strategies for improving student writing and for collaborative 
reading--helping students decipher the meaning of text. The strategies 
emphasize explicit instruction for high school students in the type of 
expository reading and writing they will encounter in college and the 
workplace. The course gives students extensive practice in such areas 
as writing, grammar, and punctuation.
    The professional development and instructional resources teachers 
use in the Expository Reading and Writing Course includes materials 
that are especially relevant for particular groups of students who 
began their schooling as ELLs. Materials that deal with verbs, for 
example, are especially important to Asian students whose first 
languages do not use verb tenses to indicate time. In the professional 
development courses, teachers learn strategies for helping their 
struggling as well as their more advanced students develop tools for 
revising their writing to meet expected standards of English usage. 
They learn to assist students to understand that editing is important 
and necessary to clarify and refine ideas.
    The CSU Reading Institutes for Academic Preparation and Expository 
Reading and Writing workshops address the California English/English 
Language Arts Content Standards and deal explicitly with key 
grammatical concepts and conventions of written English. As such, they 
are of significant value to teachers who work with ELLs. The teachers 
become prepared to teach students the skills needed to read academic 
content with understanding and to communicate ideas effectively in 
writing. To date, more than 3,000 teachers have participated in CSU 
professional development in expository reading and writing. These 
teachers develop an understanding of the relevance of academic literacy 
to all students. The majority currently--or will at some point--teach 
classes in which ELLs benefit from these techniques.
CSU Annual Accountability Report and Performance Assessments: How 
        Prepared are CSU Teacher Candidates to Work with English 
        Language Learners?
            Annual Accountability Report
    Since 2001, the teacher preparation programs on the 22 CSU campuses 
have participated in an annual Systemwide Evaluation of Teacher 
Education Programs. A central purpose of the evaluation is to provide 
information that Deans of Education and other campus leaders can use in 
making improvements in teacher education programs. It is an ongoing 
evaluation process that provides updated data about the quality of 
teacher preparation programs each year.
    The Systemwide Evaluation consists of six interrelated sets of 
activities and outcomes of teacher preparation that, taken together, 
provide a detailed picture of program quality and effectiveness.
    Outcome one focuses on the qualities of each program as reported by 
graduates when they finish the program.
    Outcome two addresses the effectiveness of a program in terms of 
the level of each graduate's preparation as reported by the graduates 
during their first few years of K-12 classroom teaching.
    Outcome three is concerned with the effectiveness of a program as 
reported by the employment supervisors (usually the site Principal) of 
CSU graduates during their first years of teaching.
    Outcome four addresses the program's impact on teaching competence 
as reflected in a measure of teaching performance.
    Outcome five examines the retention of CSU graduates in teaching.
    Outcome six examines the effects of teacher preparation on the 
learning gains of K-12 pupils who are taught by CSU graduates.
    Data have been collected on the first three outcomes for the past 
five years. These outcomes are based directly on ratings of candidates' 
preparation to teach by the candidates or their supervisors. A number 
of the items that are rated pertain explicitly to teaching ELLs. These 
include graduates' and their employers' assessments of their 
preparation to:
    <bullet> Meet the instructional needs of students who are ELLs
    <bullet> Meet the instructional needs of students from diverse 
cultural backgrounds
    <bullet> Adjust teaching strategies so all students have chances to 
understand and learn
    <bullet> Adhere to principles of educational equity in the teaching 
of all students
    <bullet> Know about resources in the school and community for at-
risk students and families
    <bullet> Use language so students at different levels can 
understand oral and written English
    <bullet> Teach the skills of English writing and provide 
appropriate feedback to students
    <bullet> Contribute to students' reading skills, including subject-
matter comprehension.
    These and a number of other factors are combined in a composite 
measure that is referred to as the annual Assessment by CSU Graduates 
and their Employers of their Preparation to Teach English Learners. 
Individual campuses look carefully at this measure to determine how 
well they are doing in preparing candidates to meet the needs of ELLs, 
and the system looks at the overall level of preparation.
    During the past few years, we have found that approximately 75% of 
our teacher candidates indicate that they feel well prepared or 
adequately prepared to teach English Learners. This leaves 25% for whom 
ratings indicate a perception that they are only somewhat prepared.
    As a system, we would like to see this percentage lowered to be 
consistent with the other ratings in our survey. Therefore, we have 
instituted a number of initiatives to help campuses share best 
practices and learn from each other.
    This issue was an area given major attention at our recent CSU 
Teacher Education Professional Development Conference, where Schools 
and Colleges of Education came together to begin collaboration on 
effective practices. This will continue to be an area of focus for the 
system as we prepare candidates to work effectively with ELLs.
Performance Assessment of Teacher Candidates
    Beginning in 2008, teacher candidates in California will be 
required to demonstrate their preparation to teach through a 
performance assessment as a criterion for receiving a teaching 
credential. CSU campuses have been preparing to implement the Teaching 
Performance Assessment for several years. It includes assessment of 
Teaching Performance Expectancies that address pedagogical skills and 
their application in teaching subject matter. Effectiveness in working 
with ELLs is addressed explicitly or is implicit in many of the 
Teaching Performance Expectancies. The success of our candidates in 
this component of the performance assessment is an area that will 
receive significant attention by the CSU as a system.
Recommendations for Reauthorization of No Child Left Behind
    The most consistent finding in all of the work of CSU and our 
partners pertaining to ELLs is the importance of high-quality 
professional development--and professional development that is embedded 
in the context of systemic reforms. There is a rapidly evolving body of 
knowledge on the approaches that are effective in enabling schools with 
large numbers of ELLs to make progress in reaching student achievement 
goals.
    The research demonstrates the importance of effective instructional 
strategies that are implemented in a school setting of high 
expectations for ELLs. Of particular relevance is the outstanding work 
in this area of Just for the Kids (www.jftk.org).
    NCLB includes support for professional development through the 
National Professional Development Program (Title III, Part A, Subpart 
3--Section 3131). Funding for fiscal year 2007 was $38.1 million. This 
is an extremely important program that supports professional 
development activities designed to improve classroom instruction for 
ELLs and assist teachers working with these children to meet 
certification standards.
    It is our view that two changes should occur in this important 
program:
    (1) Funding for the National Professional Development Program 
should be increased significantly.
    The funding currently allows for approximately 15 projects in 
California annually. In view of the importance of this area, funding of 
at least twice this scope is warranted. Studies of schools that have 
not met their Adequate Yearly Progress objectives demonstrate that they 
need assistance in professional development and that states do not have 
the capacity to meet this need. In California, CSU campuses are located 
throughout the state and can provide substantial assistance. One of the 
most significant steps for enhancing teacher preparation and 
professional development that can be taken in the reauthorization of 
NCLB is the expansion of this national program in which Institutions of 
Higher Education (IHEs) provide training and work with their high-need 
school districts as partners.
    (2) The scope of the National Professional Development Program 
should be expanded to include a range of effective teacher development 
and school reform activities.
    At present, the program is focused on activities that upgrade 
qualifications and skills of personnel who are not certified. Data from 
California demonstrate that what works to close the achievement gap for 
ELL students is systemic change at the school and district levels that 
specifically addresses the needs of these students. Successful school 
reform involves a systematic process of using data to identify needs, 
applying appropriate resources, providing appropriate professional 
development and support, and continuously using data to gauge progress.
    The work of Just for the Kids has identified different models 
currently working in schools that are effective in addressing the needs 
of ELLs. The research shows that no two models look exactly the same, 
but that all are focused on student success in meeting rigorous 
standards and on making continuous use of data as a resource for 
informing decision-making.
    Funding for IHEs to work with school teams to develop a model of 
success for their particular area based on best practices for preparing 
students for academic success or for the workforce leads to successful 
systemic change. Such change needs to include developing teacher 
leaders, involving community stakeholders, providing suitable 
resources, and continuously using data to monitor progress.
    Currently, the funding in the National Professional Development 
Program is targeted to IHEs that need to develop program curricula and 
upgrade qualifications for pre-service teachers or those who are not 
certified and licensed. In the CSU, all of our teacher preparation 
programs have undergone revisions over the past several years so that 
each of our programs provides needed preparation and all of our teacher 
candidates now graduate with an Authorization to Teach ELLs.
    The National Professional Development Project should be expanded to 
enable higher education to work with school teams of highly qualified 
teachers and administrators. A significant need is to help them develop 
the systems and structures necessary to successfully address issues of 
student achievement and closing the gap for ELLs.
    What is now needed in the legislation is the authorization of 
additional activities in order that IHEs can work with local 
educational agencies in comprehensive professional development 
programs. The purpose must be to prepare teacher and administrative 
leaders who are equipped to implement the systemic structures, data-
driven decision-making, and best practices necessary to transform the 
schools with the most need.
    This speaks to new kinds of collaborative professional development 
that focus both on solving immediate problems and on long-term capacity 
building so that schools can more effectively address the needs of 
ELLs. In the CSU, we draw on expertise across all of our campuses in 
implementing such approaches that bring about significant instructional 
reforms of this nature.
    Next year, the CSU expects to begin seven new Ed.D. programs in 
Educational Leadership located in regions across the state. The 
authorizing legislation (California Senate Bill 724-Chapter 269, 
Statutes of 2005, Scott) called upon CSU to prepare a diverse group of 
educational leaders through partnerships with local education efforts 
that bring about significant reforms and improve student achievement.
    The approaches we have developed for the new CSU Ed.D. programs are 
the very ones needed for equipping schools and teachers to succeed in 
serving ELLs. We look forward to having them become national models for 
preparation of educational leaders, like those we have developed in 
teacher preparation.
Conclusion
    The CSU and its campuses are deeply committed to preparation and 
professional development equipping schools and teachers to address the 
needs of English Language Learners. As we identify and evaluate 
strategies that are of demonstrable effectiveness, we anticipate 
sharing them not only among our campuses but also with colleges, 
universities, and state and local educational agencies around the 
country.
    We thank you for your interest in the efforts of the CSU to meet 
this need. I will be pleased to answer any questions you might have, 
and we look forward to working with you in this critical area in the 
future.
                                 ______
                                 
    Chairman Kildee. Ms. Guzman.

             STATEMENT OF MARTA GUZMAN, PRINCIPAL,
               OYSTER BILINGUAL ELEMENTARY SCHOOL

    Ms. Guzman. Chairman Kildee, Ranking Member Castle and 
subcommittee members of the Subcommittee on Early Child, 
Elementary and Secondary Education, I am pleased to appear 
before you today to testify on the impact of No Child Left 
Behind on English language learners.
    As the Principal of Oyster Bilingual Elementary School, a 
public school in the District of Columbia, I welcome the 
opportunity to share with you the many successes and the best 
practices that make Oyster's program unique.
    Oyster has distinguished itself in the city for having long 
lines of parents who have camped out on the street for 3 weeks 
at a time in order to be guaranteed a space at Oyster, and this 
year alone, I have 250 applications for 24 slots. Next year, we 
will be expanding our model from a pre K-6 to a pre K-8 middle 
school, and so the question is why. Why does this happen? I 
hope that I can expand on that just a little bit.
    Oyster Bilingual Elementary School is the only public 
school in D.C. that seeks to teach from pre K through 6 in two 
languages--Spanish and English. Launched as a dual language 
immersion model in 1970 by Latino and community activists, this 
school achieves an academic excellence with an ethnically and 
socioeconomically diverse student body. Oyster's model of 
bilingual education mandates a challenging curriculum that 
logically integrates the international focus throughout its 
program content. The Oyster model requires that each classroom 
have two teachers--a native English speaker as well as a native 
Spanish-speaking teacher--and that every subject be taught 
equally in both languages.
    Students do not switch languages midday or change according 
to classroom topic. Rather, there is a seamless integration of 
the two languages across all subject matter. Further, Oyster's 
faculty hail from all over the world and bring unique culture 
and values to the content that they teach. The result is a 
global ethos that enables Oyster to nurture children who not 
only become fluent in two languages, but who gain a deep-felt 
understanding of and respect for the diverse cultures that make 
up our world.
    The seamlessly integrated focus on language learning is 
supported by the school's admission policy, which requires a 
50/50 balance between students who are native Spanish speakers 
and those who are native English speakers. When English 
language learners and Spanish language learners are educated on 
an equal playing field like this, an advanced level of cross-
cultural acceptance and understanding is possible, and this 
forms the basis of language learning at Oyster.
    Given Oyster's program and student family population, the 
school is well situated to help offer D.C. Latinos needed 
services and support. Oyster recently received a grant from the 
D.C. Mayor's Office on Latino affairs to take on this work in 
partnership with the Carlos Rosario International School. The 
funding is enabling Oyster to provide ESL classes for Latino 
parents of elementary-aged children. The Oyster school has an 
informal relationship with Mary's Center for Maternal and 
Childcare, a family health and social services center dedicated 
to increasing access to comprehensive bilingual care to low-
income, uninsured residents of Washington, D.C.
    Eligible families are identified by Oyster and are referred 
to the Center while the Center staff refers patients with 
educational needs to Oyster. Working with community and 
supporting families is also at the basis of supporting English 
language learners.
    In addition to this recent national recognition of the 
school's success, of the No Child Left Behind--Blue Ribbon 
Award, Oyster regularly measures and documents students' 
achievement in both English and Spanish. As a D.C. public 
school, Oyster administers a standard achievement test and also 
the D.C. comprehensive assessment system as well as Aprenda: La 
Prueba de Logros en Espanol--2nd Edition. All Oyster students, 
including special education students, participate in this 
testing. Every year on every test, the Oyster students' scores 
in reading and math greatly exceed those for the District of 
Columbia as a whole.
    In 2006, 79 percent of Oyster's students tested at 
proficient or above proficient in reading. 21 tested as 
advanced. In math, 72 percent of our students tested proficient 
and above proficient, and 30 percent tested as advanced.
    I also have more, but I will stop at this point because my 
light is on. Thank you so much.
    Chairman Kildee. Thank you very much.
    [The statement of Ms. Guzman follows:]

             Prepared Statement of Marta Guzman, Principal,
                   Oyster Bilingual Elementary School

    Chairman Kildee, Ranking Member Castle, and distinguished members 
of the Subcommittee on Early Childhood, Elementary and Secondary 
Education, I am pleased to appear before you today to testify on the 
``Impact of NCLB on English Language Learners''. As the principal of 
Oyster Bilingual Elementary School, a public school of the District of 
Columbia I welcome the opportunity to share with you the many successes 
and best practices that make Oyster's program unique.
I. School background
    Oyster Bilingual Elementary School is the only public school in 
Washington, DC that educates all students from Pre-Kindergarten to 6th 
grade in two languages: Spanish and English. Two core features define 
Oyster's dual language immersion model:
    1. An admission policy that creates a 50-50 balance between 
students who are native Spanish speakers and those who are native 
English speakers.
    2. An instructional model that teams a native English-speaking 
teacher and a native Spanish-speaking teacher in each classroom, with 
every subject taught equally in both languages.
    In the Oyster model students do not switch languages at mid-day, or 
change according to classroom or topic. Rather, there is a seamless 
integration of the two languages across all subject matter--students 
don't just learn Spanish, they learn in Spanish. So while the Oyster 
curriculum meets all of the DCPS academic standards, bilingualism is 
not an educational tool toward this end, but rather an essential goal 
in itself. All Oyster students are expected to (and do) become fluent 
and literate in both Spanish and English, most by the time they finish 
3rd grade.
    In addition to 2006 recognition as a U.S. Department of Education 
``No Child Left Behind-Blue Ribbon School,'' Oyster students' academic 
achievement in both English and Spanish is consistently above par. 
Scores in reading and math always exceed those for the District of 
Columbia as a whole, and 2006 testing in Spanish puts Oyster students 
in the 75th percentile in reading and the 84th percentile in math for 
the nation (Oyster is the only school in DC to test all of its students 
in reading and math in both English and Spanish, so no system-wide 
comparisons are available). However, compared to scores on the Aprenda 
test nationwide, Oyster students consistently show strong results.
II. Best practices
            Oyster Bilingual Elementary School Offers a Challenging 
                    Curriculum That Integrates International Content
    Oyster Bilingual Elementary School is the only public school in 
Washington, DC that educates all students from Pre-Kindergarten to 6th 
grade in two languages: Spanish and English. Launched as a dual 
language immersion program in the 1970s by Latino, community and 
education activists, the school achieves academic excellence with an 
ethnically and socio-economically diverse student body. Oyster's model 
of bilingual education mandates a highly challenging curriculum that 
logically integrates an international focus throughout its study 
content.
    The Oyster model requires that each classroom have two teachers, a 
native English-speaker as well as a native Spanish-speaking teacher, 
and that every subject is taught equally in both languages. Students do 
not switch languages at mid-day, or change according to classroom or 
topic. Rather, there is a seamless integration of the two languages 
across all subject matter. Further, Oyster's faculty hail from all over 
the world, and bring unique culture and values to the content they 
teach. The result is a global ethos that enables Oyster to nurture 
children who not only become fluent in two languages, but who gain a 
deeply-felt understanding of, and respect for, the diverse cultures 
that make-up our world.
    The seamlessly integrated focus on language learning is supported 
by the school's admission policy which requires a 50-50 balance between 
students who are native Spanish speakers and those who are native 
English speakers. When English-language learners and Spanish-language 
learners are educated on an equal playing field like this, an advanced 
level of cross-cultural acceptance and understanding is possible, and 
this forms the basis of language learning at Oyster.
    Given Oyster's program and student/family population, the school is 
well-situated to help offer DC Latinos needed services and support. 
Oyster recently received a grant from the DC Mayor's Office on Latino 
Affairs to take on this work, in partnership with the Carlos Rosario 
International School. The funding is enabling Oyster to provide ESL 
classes for Latino parents of elementary-age children. The Oyster 
School has an informal relationship with Mary's Center for Maternal and 
Child Care, a family health and social services center dedicated to 
increasing access to comprehensive bilingual care to low-income, 
uninsured residents of Washington, DC. Eligible families are identified 
by Oyster and referred to the Center, while Center staff refers 
patients with educational needs to Oyster. Working with the community 
and supporting families is at the core of supporting English language 
learners.
III. Oyster Bilingual Elementary School can provide measures of student 
        success, including proficiency in learning world languages
    In 2006, Oyster was named a U.S. Department of Education ``No Child 
Left Behind-Blue Ribbon School.'' This honor goes to schools that are 
either academically superior in their states or demonstrate dramatic 
gains in student achievement. Oyster was the only school named in 
Washington, DC in 2006, and was the only bilingual school named 
nationwide, public or private.
    In addition to this recent national recognition of the school's 
success, Oyster regularly measures and documents student achievement in 
both English and Spanish. As a DC public school, Oyster administers the 
Stanford Achievement Test 9th Edition (SAT-9), and beginning this 
school year, the DC Comprehensive Assessment System (DC CAS). In 
addition, Oyster administers the Aprenda: La Prueba de Logros en 
Espanol--2nd Edition. All Oyster students, including special education 
students, participate in testing.
    Every year and on every test, Oyster students' scores in reading 
and math greatly exceed those for the District of Columbia as a whole. 
In 2006, 79% of Oyster students tested ``at proficient'' or ``above 
proficient'' in reading; 21% tested as ``advanced.'' In math, 72% of 
Oyster students tested ``at proficient'' or ``above proficient;'' 30% 
tested as ``advanced.''
    Thus, the dual language immersion model at Oyster is additive--not 
only celebrating a student's heritage and making it stronger, but 
simultaneously developing high levels of competence in English. This 
philosophy undergirds instruction at Oyster. Minority and majority 
students at Oyster come together in an environment that celebrates an 
equal balance between cultures and languages, thus eliminating the 
divide and providing for a high degree of self-esteem in all students. 
Thus, the high academic performance level at the lower grades provide 
for higher achievement in the middle and high school years. All of 
these factors contribute to academic success of our students and 
diminish the possibilities of having students drop out of school.
                                 ______
                                 
    Chairman Kildee. Ms. Sanchez.

  STATEMENT OF FRANCISCA SANCHEZ, ASSISTANT SUPERINTENDENT OF 
       CURRICULUM AND INSTRUCTION, SAN BERNARDINO COUNTY 
                SUPERINTENDENT OF SCHOOLS OFFICE

    Ms. Sanchez. Good morning, Chairman Kildee, Ranking Member 
Castle and members of the subcommittee.
    Today, I am pleased to be here representing San Bernardino 
County Superintendent of Schools Office as well as our partner 
county Offices of Education in Los Angeles, Orange, Riverside, 
San Diego, and Ventura Counties. Together, we compromise the 
PROMISE Initiative, a collaboration for English learner reform 
and success.
    The needs of English learners, as you well know, in my 
county and throughout our five partner counties are staggering. 
In San Bernardino County alone, almost 90,000 students--that 
is, one in five of our students--are English learners. In 
California, over a fourth of all students are English learners, 
and 64 percent of all California's English learners attend 
school in one of our six counties. We are talking about over 1 
million students. Yet, of these, only 7 percent receive full 
access to both the English language development and the core 
academic curriculum they need to meet the requirements of NCLB 
and to succeed in school, and this is a recipe for educational 
and societal disaster.
    NCLB requires that all students reach proficient levels of 
achievement by 2014--that is just 7 years from now--but 
currently, at second grade, fewer than a third of our English 
learners meet the proficient standard in language arts, and at 
the eleventh grade, only 4 to 6 percent test at or above 
proficient. What does this mean for our schools?
    For one thing, in San Bernardino, we see an alarming trend 
with a majority of the 90-plus schools in program improvement 
there based on the academic gaps experienced by our English 
learners, and we see a similar pattern when we look at who 
teaches these English learners. Although NCLB requires that 
every student be taught by a highly qualified teacher, English 
learners are twice as likely as students in general to be 
taught by a teacher who is not fully credentialed. Considering 
this, the PROMISE Initiative proposes a bold shift in how we 
design and deliver successful English learner programs.
    As part of the PROMISE Initiative, our six counties in 
Southern California have risen together to boldly and 
innovatively address the needs of English learners and to build 
a vision and model that can be replicated across the Nation. 
The ultimate goal of the PROMISE Initiative, of course, is to 
ensure that English learners achieve and sustain high levels of 
academic, linguistic and multi-cultural competency and that 
they are successfully prepared for 21st Century citizenship.
    Most unique about PROMISE is that it is grounded in eight 
research-based core principles to promote the academic success 
of English learners in grades K through 12th. These are 
described in detail in your materials, but they include 
enriched and affirming learning environments, empowering 
pedagogy, challenging and relevant curriculum, high-quality 
instructional resources, valid and comprehensive assessment, 
high-quality professional preparation and support, powerful 
family and community engagement, and advocacy-oriented 
administrative and leadership systems.
    In our six counties, we have worked with districts and 
schools to develop and pilot customized programs to meet the 
specific needs of the English learners at their sites. Each 
district and school is using local funds to support its work in 
PROMISE and has expressed its commitment to PROMISE from all 
levels, including a commitment to a rigorous goal standard, 
research and evaluation component. PROMISE is a research-
supported, principles-based reform model, and so PROMISE 
facilitates the design of local systems that promote 
simultaneous delivery of language and literacy development and 
rigorous academic content instruction systemically throughout a 
school district. As a result, PROMISE provides schools and 
districts with what they need to improve instruction, close 
achievement and access gaps and increase college-going rates 
for English learners, and in addition, we expect to see better 
prepared teachers and high levels of parent satisfaction and 
support.
    The bottom line is that the PROMISE Initiative is putting 
into practice what really works to meet the needs of English 
learners, and I invite you to view our accompanying materials 
which describe the initiative in detail, an initiative that, we 
believe, holds the key to fulfilling the promise of No Child 
Left Behind, and that is why I so appreciate the opportunity to 
speak with you today. We understand and support the positive 
intent of No Child Left Behind, and so we have come to the 
careful conclusion that several areas of NCLB need revision in 
order to truly have the intended impact on English learners in 
our schools, and I will briefly address two of these areas.
    The first one of the greatest areas of impact of NCLB has 
been the implementation of the accountability provisions. 
States must be held accountable for implementing an assessment 
and accountability system that uses valid and reliable 
instruments. Secondly, we understand the role interventions and 
eventually sanctions play, and we need to have our schools 
using the existing research to prepare those interventions.
    Thank you so much.
    Chairman Kildee. Thank you very much, Ms. Sanchez.
    [The statement of Ms. Sanchez follows:]

 Prepared Statement of Francisca Sanchez, Assistant Superintendent of 
  Curriculum and Instruction, San Bernardino County Superintendent of 
                             Schools Office

    Good morning Chairman Kildee, Ranking Member Castle, and members of 
the Subcommittee. I am Francisca Sanchez, Assistant Superintendent of 
Curriculum and Instruction of the San Bernardino County Superintendent 
of Schools Office in Southern California. Today, I am pleased to be 
here to represent San Bernardino County as well as five additional 
Southern California county offices of education that comprise the 
PROMISE Initiative--a six county collaboration for English Learner 
reform and success. Our partnership includes the county offices of 
education of Los Angeles, Orange, Riverside, San Bernardino, San Diego, 
and Ventura.
    The needs of English Learners in my county and throughout our six 
county partners are huge. In San Bernardino County alone, almost 90,000 
students are English Learners. This represents one in five of our 
students. Based on data from the California Department of Education, we 
know that within the state of California, over one fourth of all 
students are English Learners, and that 64% of all English Learners in 
the state attend school in one of our six counties. We're talking about 
over 1 million students (1,008,140). Yet, only 7% of our English 
Learners receive FULL access to both the English Language Development) 
and the core academic curriculum they need to meet the requirements of 
NCLB and to succeed in school. This is a recipe for educational and 
societal disaster.
    NCLB requires that all students reach proficient or higher levels 
of academic achievement within 12 years. Currently, at second grade, 
only 21 to 32% of English Learners in the six PROMISE counties meet the 
proficient standard in Language Arts. At the 11th grade, only 4 to 6% 
test at or above proficient. At the high school level, only 29% of 
English Learners tested in the six PROMISE counties have passed the 
California High School Exit Exam in English Language Arts compared to 
72% of English only students. On the Mathematics exam, 49% of English 
Learners passed, compared to 78% of English only students.
    What does this mean for schools and districts relative to NCLB? San 
Bernardino County provides an example of the consequences. Here, we see 
an alarming trend where the majority of the ninety plus schools in 
Program Improvement are there based on the academic gaps experienced by 
our English Learner students.
    We see a similar pattern when we consider who teaches English 
Learners. Although NCLB requires that EVERY student be taught by a 
highly qualified teacher, English Learners are twice as likely as 
students in general to be taught by a teacher who is not fully 
credentialed.
    Taking these demographic and performance data into consideration, 
the PROMISE Initiative proposes a bold shift in how we deliver 
successful programs to these students, not only in the local geographic 
area, but nationwide. It provides an alternative to highly negative 
consequences of continuing to school our English Learners for failure.
    The PROMISE Initiative As mentioned above, the PROMISE Initiative 
is a collaboration of six county offices of education in Southern 
California who have risen together to boldly and innovatively address 
the needs of English Learners and to build a vision and model that can 
be replicated throughout our state and the nation. The ultimate goal of 
the PROMISE Initiative is to ensure that English Learners achieve and 
sustain high levels of academic, linguistic, and multicultural 
competency, and are successfully prepared for 21st century citizenship.
    The PROMISE Initiative is in the beginning phase of a three-year 
pilot study (2006-2009) to advance a powerful vision of English Learner 
success. Within the six counties, six school districts and 15 schools 
(PreK-12th grade) are participating in a customized pilot program to 
meet the specific needs of the English Learners at their sites. Each 
district and school is using local funds to support their work in 
PROMISE, and they have expressed their commitment to PROMISE from all 
levels--district and site leadership, teachers, students, parents, and 
targeted support from county offices of education.
    The PROMISE approach promotes simultaneous delivery of language/
literacy development and rigorous academic content instruction 
systemically throughout a school district. As a result, schools and 
districts will close the achievement and access gaps and increase 
college-going rates for English Learners, and achieve high levels of 
parent satisfaction and support. PROMISE is not a curriculum or 
specific program, but rather it is a research-supported, principles-
based reform model that addresses the needs of English Learners 
throughout the entire school system (i.e. district, school, community, 
county,). The research-based core principles to realize this vision 
are:
    <bullet> Enriched & Affirming Learning Environments
    <bullet> Empowering Pedagogy
    <bullet> Challenging & Relevant Curriculum
    <bullet> High Quality Instructional Resources
    <bullet> Valid & Comprehensive Assessment
    <bullet> High Quality Professional Preparation & Support
    <bullet> Powerful Family & Community Engagement
    <bullet> Advocacy-Oriented Administrative & Leadership Systems
    The PROMISE Initiative embraces a vision that English Learners will 
achieve and sustain high levels of proficiency, including literacy, in 
English and the home language; high levels of academic achievement, 
including proficiency on state standards across the curriculum and 
maintenance of that achievement in English after participation in 
specialized English Learner programs and through grade 12; 
sophisticated sociocultural and multicultural competency; preparation 
for successful transition to higher education; successful preparation 
as a 21st century global citizen; and high levels of motivation, 
confidence, and self-assurance.
    The PROMISE Initiative uses a gold standard of research employing 
the NAEP, NCLB, state, and local standards, as well as performance 
based assessments and student surveys, to measure English Learner 
achievement in acquiring English and learning academic content. At the 
conclusion of the three-year pilot study, the research and evaluation 
findings will be published and PROMISE will move into a five-year field 
study to replicate and expand the vision of PROMISE to schools and 
districts in California and the nation. The six Southern California 
PROMISE counties are in a critical position and have the combined 
knowledge/experience base to powerfully and positively affect education 
for English Learners nationwide through the PROMISE Initiative.
Impact of NCLB on English Learners
    I greatly appreciate the opportunity to speak to you today about 
the impact of No Child Left Behind on English Learners and to add to 
the national dialogue on this very important issue.
    Let me begin by highlighting a few key points about our position on 
and approach to the impact of NCLB on English Learners.
    <bullet> English learners are most often the subgroup that has not 
met AYP targets in schools that are classified as Program Improvement. 
To add to the educational challenges in California, the achievement gap 
between English only students and English Learners has grown every year 
since the 2002-03 school year.
    <bullet> English Learners must meet the same rigorous standards set 
for all students. It is essential that NCLB allow various paths to 
reach that goal without labeling students and schools as failures. 
Currently, NCLB requires English Learners to meet standards at the same 
pace as others while a significant portion of these students is doing 
double work -learning a second language and striving to reach high 
academic standards.
    While acknowledging and understanding that the intent of NCLB and 
other policies regarding English Learners has been to provide key 
guidelines and support for their success, we have come to the careful 
conclusion that several areas of NCLB need revision in order to truly 
have an impact on English Learners in our schools. The areas that we 
have identified include:
    <bullet> Assessment and Accountability System for English Learners
    <bullet> Sanctions and Interventions
    <bullet> Reading First
    <bullet> Highly Qualified Teachers/Professional Development
    <bullet> Paraprofessionals
    <bullet> Supplemental Educational Services (SES)
    <bullet> Parent and Family Engagement
Assessment and Accountability System for English Learners
    One of the greatest areas of impact of NCLB in our state and in the 
nation has been in the implementation of assessment and accountability 
systems--not just for English Learners, but also for all learners. To 
best reflect the abilities of our English Learner students and in order 
to assure accurate and reliable results, states must be held 
accountable for implementing an assessment and accountability system 
that uses valid and reliable instruments to yield accurate data as to 
what an English Learner knows and can do.
    A revised NCLB should ensure that the English Learner testing 
provision requires testing ``in a language or form that most accurately 
reflects what students know and are able to do''. Tests in the home 
language, modified English tests, and other appropriate measures need 
to be a part of each state's system until students' English proficiency 
allows them to compete on tests developed for native English speakers. 
Guidelines on appropriate testing accommodations for English Learners 
need to be provided and states need to be monitored on their statewide 
implementation of these accommodations. Additionally, in order to make 
the aforementioned a reality, it is key to significantly increase 
research and investment in the development of appropriate assessments 
and accommodations.
    Because NCLB has rightly focused on measuring the success of 
students from several subgroups to allow for clear and careful analyses 
of the data, it is important that English Learners are maintained as a 
subgroup and that the data are disaggregated for two distinct purposes: 
1) Under Title III, English Learners in U.S. schools three years or 
less must be included in AMAOs I and II (and AYP only if documented 
accommodations yield valid and reliable results for this subgroup); 
and, 2) English Learners in the U.S. more than three years should be 
included in both the Title I AYP and Title III AMAO calculations with 
appropriate accommodations geared to different English Learner 
proficiency levels.
    And finally, any growth model should include longitudinal student 
data that disaggregate English Learner data by proficiency in home 
language and English, time in program, and type of services/programs. 
Currently, we have found an inconsistency in the way data are collected 
and accounted for, often just giving a one-year view of student growth 
and progress that inadequately or inaccurately predicts sustainable, 
long-term success.
Interventions
    With accountability at the center of our discussion around student 
success, we understand the role interventions and eventually sanctions 
play to ensure that the needs of all students are addressed; however, 
interventions need to be based upon data that accurately reflect what 
English Learners know and can do. We have seen case after case where 
English Learners are lumped into one large category, not accounting for 
their distinct language levels and background educational experiences. 
It is imperative that the data that are used to define the most 
effective intervention needs account for the students' level of English 
and home language proficiency, time in U. S. schools, previous level of 
education, and the types of program services provided.
    There is extensive research and documentation in the field 
regarding the best and most effective practices and strategies for 
English Learners--our PROMISE Initiative espouses many of them in our 
approach to English Learner success. Regrettably, in the quest to reach 
compliance with NCLB, many of our schools, for a variety of reasons, 
move forward on decisions regarding reform for English Learner programs 
without taking that research into consideration. In order to have the 
kind of powerful growth called for by NCLB, interventions must rely on 
research-based practices that promise long-term, sustainable, high 
level success for English Learners in first and second language 
development AND academic achievement. If and when schools enter into 
Program Improvement status, it is imperative that they contract with 
personnel/entities that have experience and expertise with English 
Learners. Similarly, sanctions for schools in Years 4/5 Program 
Improvement must reflect a wide array of new program options for 
alternative governance, such as biliteracy, dual language, structured 
English immersion, Spanish for native speakers, and others documented 
as successful with English Learners.
Reading First
    NCLB has provided our schools and districts nationwide with 
targeted approaches for literacy development through Reading First. It 
is imperative, once more, to stress that any program or approach that 
intends to impact English Learners directly address the differentiated 
needs of students based on language acquisition and educational 
experience. In the case of Reading First, states must be held 
accountable to develop research-based approaches and materials that 
specifically accelerate language development and literacy for
    English Learners and that maintain this accelerated progress over 
several years in order to close the achievement gaps. The professional 
development designed for the Reading First program must prepare 
teachers to differentiate instruction to address the language 
proficiency and literacy needs of English Learners. To accurately 
reflect the teaching and learning that has occurred, the evaluation 
design and assessments in state Reading First programs must be valid 
and reliable to demonstrate what English Learners know and can do, and 
how this growth is able to be sustained over time.
Highly Qualified Teachers/Professional Development
    As I noted in my introduction, while NCLB requires that EVERY 
student be taught by a highly qualified teacher, English Learners are 
twice as likely as students in general to be taught by a teacher who is 
not fully credentialed. According to ``Teaching and California's 
Future'' (2006) published by the Center for the Future of Teaching and 
Learning, CSU Office of the Chancellor, UC Office of the President, 
Policy Analysis of California Education, and WestEd, one of the 
greatest teacher preparation shortages in the state is in the area of 
teachers for English Learners. In fact, in 2005-06 only 56% of fully 
credentialed, experienced (more than five years of teaching experience) 
teachers had English Learner authorizations. While this is a dramatic 
increase from over five years ago (34%), given the nature of 
instruction and the fact that English Learners are incorporated 
throughout virtually all classrooms in schools where they are present, 
the percentage must be much higher to ensure effective academic 
instruction for English Learners.
    Given this context, in response to the teacher professional 
development components of NCLB, we strongly recommend that the 
definition of highly qualified teachers be expanded and clarified to 
require that teachers who provide instruction to English Learners have 
the appropriate EL authorization. Teachers in all core subject areas 
who are assigned to provide instruction to English Learners should be 
explicitly required to receive professional development in English 
Language Development (ELD), Specially Designed Academic Instruction in 
English (SDAIE), and/or primary language instruction. To support this 
type of focused teacher professional development, a key factor would be 
to re-institute federal grants for graduate students in ELD and 
bilingual education.
Paraprofessionals
    In addition to focusing on high quality professional development 
for teachers, NCLB has recognized the key role that paraprofessionals 
play in the education of all students. To specifically address the 
growing needs of English Learners, it is distinctly important to 
require that paraprofessionals working with English learners be 
provided with training and professional development to address their 
working knowledge and implementation of first and second language 
acquisition and other appropriate strategies. Career ladder 
opportunities are needed that lead to appropriate English Learner 
certification, along with teaching credentials.
Supplemental Educational Services (SES)
    NCLB has targeted additional support for English Learner students 
via the Supplemental Educational Services. Concentrated, focused 
approaches in SES programs have been proven to support student academic 
growth and engagement if they are closely aligned to the goals and 
practices of the school's educational program. Such services can and 
should play a role in supporting English Learner students by 
specifically ensuring that parents are given sufficient information to 
make informed decisions regarding SES providers and that the 
information is provided in the language spoken by the parents.
    The role of the SES provider, obviously, is instrumental in how 
successful the program will be. SES providers who work with English 
Learners should be required to have the knowledge and skills necessary 
to teach English Language Development and rigorous, grade-level 
appropriate, standards-based content instruction appropriate to the 
various language proficiency levels of the students. Providers should 
be required to deliver instruction consistent with the language of 
instruction during the school day for the designated subjects
Community Building Parent and Family Involvement
    As we have addressed the impact of NCLB for English Learners in 
areas such as accountability, professional development, and educational 
programs, we recognize that the underlying foundation for the success 
of our students draws from the primary role of parents and family. NCLB 
has strongly influenced the importance of the role of parent and family 
engagement as a key factor to student success and indeed has recognized 
parents as students' first and ongoing teachers. We have greatly 
appreciated the emphasis that has been placed on the role of parents 
and community in effective programs for English Learner students. To 
maximize the impact of parent and family engagement, we recommend that 
parent advisory committees be required to include representation of 
English Learner parents and specific roles for their involvement, that 
there is an increase in the percent of funding that is allocated to 
parent involvement, and that an independent audit of states' 
implementation of the required parent involvement/community building 
mandates be implemented.
Conclusion
    It has been my pleasure and an honor to share the work we are doing 
on behalf of English Learners and to highlight the impact of No Child 
Left Behind in the Southern California region. Through this opportunity 
to testify on this panel, I am hopeful that the true needs and concerns 
of English Learners will be addressed.
                                 ______
                                 
    Chairman Kildee. I thank all of you for your testimony.
    The rules of the subcommittee adopted on January 24th of 
this year give the Chair the discretion on how to recognize 
members for questioning. It is my intention as chair of this 
subcommittee to recognize those members present at the 
beginning of the hearing in order of their seniority on this 
subcommittee. Members arriving after the hearing began will be 
recognized in order of appearance.
    I now recognize myself for 5 minutes.
    Mr. Zamora, you said that No Child Left Behind was very 
helpful as written for these students, but the implementation 
is where the problem lies. Could you expand upon that?
    Mr. Zamora. Certainly.
    I think one of the primary problems, as certainly many have 
testified today, is with the quality of the tests for English 
language learners. It has not been a very high priority for 
States or for the Federal Department of Education until 
recently, and so we are working now to improve the quality of 
tests, but really need to move forward with that process and to 
receive congressional support for testing these students 
properly.
    I would also note that English language learners can be 
included in several subgroups. Many English language learners 
are also low-income, and likely also the interracial, ethnic 
minority, and so, not only do tensions regarding test quality 
for English language learners affect the performance of the ELL 
subgroup, but also these other subgroups as well, so it is 
really going to be very important that we measure what students 
know, design interventions that are effective and really lift 
the performance levels of ELLs.
    Chairman Kildee. Do you think the language in No Child Left 
Behind is adequate or is there a question that we do not 
appropriate enough to carry out the language?
    Mr. Zamora. Certainly, funding is a concern, and my 
coalition has been advocating for increased funding for No 
Child Left Behind for years, and so we are looking forward to 
increased funding levels.
    There is a challenge in terms of the implementation of 
native language assessments, which is that the current language 
states that States must do so to the extent practicable. Many 
States have chosen to interpret that as being a requirement 
without teeth and have basically declared that practicability 
rarely exists, and so we have not seen enough States implement 
the kind of native language assessments, including California, 
I might add, with 1.25 million English language learner 
students who are being tested using an English language test. 
If I were to move to China, I would want my student to be 
tested in English, not in Chinese, because that would most 
likely generate meaningful results for that population.
    Chairman Kildee. I can recall, when I was teaching school, 
at a PTA meeting, I taught Latin, and the teacher next to me, 
as we had the PTA meeting, was teaching French, and in 
frustration, she said to the parent ``Your child will never 
learn French,'' and the mother said, ``Well, I am glad he was 
not born in Paris then.'' so you can teach people language 
then, right?
    Dr. Young, I was the author of the Bilingual Education Act 
in Michigan many, many years ago. Since then, we have limited 
English proficiency, English language learners, English as a 
second language. Does the California State system provide 
programs for all of these or are they mingled somewhat in 
preparing for these four programs?
    Ms. Young. I think there continues to be an expansion of 
the types of programs and the acronyms that we use to describe 
them all, and I think there is a full range of those programs 
represented across our campuses.
    I think there is a core that all of our campus faculty 
agree on. Just 2 weeks ago, March 9th, we had a teacher ed 
professional development faculty conference, and one of the 
strands of that conference was pedagogy and strategies for best 
practice in preparing ELL teachers, and we have a whole core 
list of what are the strategies that all of our campuses 
address that our faculty agreed on are primarily important.
    Then each campus works with their local districts to ensure 
they are meeting the local needs as well. We would be happy to 
give you a list of those core things that all of our campuses 
work on.
    Chairman Kildee. That would be very helpful because this 
has changed much through the years, and we perceive the needs 
better, I think, than we did, whether generic or bilingual, 40 
years ago, but much more sophisticated and different needs 
exist now. We are aware of those needs more. So, if you could 
provide us with that, we would very much appreciate it.
    To what degree is teaching the teachers needed more in 
order to address this problem?
    Ms. Young. In the CSU, I think we have addressed this very, 
very seriously, as I said, preparing all teachers who come from 
the CSU as teachers of ELLs because that is the reality in 
California classrooms. I think one thing that NCLB could do--
when people talk about accountability, there is a lot of 
accountability for schools and districts, and Ms. Sanchez 
addressed the accountability that schools have for showing that 
they have student achievement results.
    I think institutions of higher ed and other programs that 
prepare teachers should be held accountable for showing that 
they prepare new teachers to work in these challenging 
environments, that institutions should show that new teachers 
who are often the ones who are sent to the most challenging, 
at-risk populations should be the best equipped, the best 
equipped that we can provide for them to deal with issues of 
poverty, of language learning, of other things that contribute 
to students' being at risk for failure. So I think it is 
realistic to ask programs ``How do you prepare future teachers 
to do that?''
    In addition to the professional development for existing 
teachers and updating their skills--as you say, things change 
so quickly, but I think new teachers is the key. She also 
mentioned that the distribution of teachers is a huge issue. 
The teacher shortage in different areas, it is not so much a 
shortage as it is a maldistribution. In California, 85 percent 
of our intern teachers, who are teachers who have subject 
matter knowledge but not necessarily any professional 
preparation--85 percent of these intern teachers are at our 
lowest-performing schools.
    These are the schools where they need our best teachers, 
and I think both districts and schools and institutions should 
be held accountable for trying to address that problem, 
figuring out ways to get the best qualified teachers to the 
kids who need them the most.
    Chairman Kildee. Thank you very much.
    Governor Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    Let me thank each of you. You bring a lot of different 
perspectives and very interesting perspectives to the table, 
and I appreciate that. I am going to ask--this is always 
dangerous--a very general question and try to elicit answers 
from as many of you as want to try to answer it as possible. 
The reason for this hearing and the reason we have been having 
hearings is we are getting ready to reauthorize or rewrite, if 
you will, No Child Left Behind, and I am interested in your 
views on what specifically we might or should be looking at in 
No Child Left Behind, and if you really know well, if you want 
to cite page 5 and put in a semicolon instead of a comma, that 
is fine, but more likely, you will want to talk about a general 
area or something of that nature, and some of you did.
    Dr. Young, you indicated in your testimony you had a few 
other thoughts that you did not get to that you might want to 
include in the changes in No Child Left Behind. On the funding 
issue, you are more than welcome to speak to it. We have had a 
lot of hearings. We have never had anyone come in here and say 
we want less funding. So we understand you probably want more 
funding if I had to guess.
    I am looking for volunteers on this, but you may talk 
generally about an area that you think needs to have attention 
paid to it or specifically about something that is either in or 
not in the legislation that you feel we should be looking at as 
members of Congress in the future.
    Ms. Ashby.
    Ms. Ashby. Well, if I can start----
    Mr. Castle. Sure. Do not take too long, by the way. We only 
have 5 minutes total here.
    Ms. Ashby. No, I will not.
    To elaborate a little bit on what I said in my opening 
statement and what we said in our full statement and what we 
said in the report upon which that statement was based, we have 
recommended that the Department look at the possibility of 
increasing flexibilities and with the knowledge that 
accountability is very important and particularly for limited 
English proficient students and other subgroups of the student 
population, but there is probably a balance that can be reached 
that may be different than the current legislation that would 
allow for more flexibility given the diversity of the limited 
English proficient population of students, and hopefully, the 
Department and perhaps, through legislative change, there could 
be more of an effort toward that. I think that would help a 
lot.
    Mr. Castle. Thank you, Ms. Ashby.
    Any other volunteers?
    Ms. Sanchez. I would like to jump in on this one.
    For us in California, a huge issue is around the 
interventions and sanctions because we have so many schools 
moving into program improvement, and although we know a lot 
about what works with English learners, what can accelerate 
their achievement, both in language development and in academic 
content, many, many of our schools are feeling very pressured 
to adopt reforms and interventions that, in fact, totally 
disregard this broad base of research.
    So, in the reauthorization of NCLB, if there could be 
something that required the interventions to actually be based 
on the research that is pertinent to the particular group of 
students that is intended to be served, that would be a huge 
advance.
    Thank you.
    Mr. Castle. Thank you.
    Others?
    Ms. Young. I just would add--I think I gave three already, 
but the other thing I would add in the reauthorization is 
looking again at the definition of the ``highly qualified 
teacher.'' currently, ``highly qualified'' is all an input 
measure about what teachers bring to their position, and there 
might be a better definition of effective teaching that could 
be applied. Again, for example, in California, under NCLB, you 
are a highly qualified teacher before you are a fully qualified 
teacher because of the way the regulations are written, and so 
I do not use the term ``highly qualified teacher'' in 
California. We talk about NCLB-compliant, because I think there 
is a much higher standard for teachers to truly be highly 
qualified especially in preparation for high-risk populations.
    Mr. Castle. Thank you.
    Ms. Guzman.
    Ms. Guzman. I would like to add that minority and majority 
students need to be considered as coming together in an 
environment that celebrates a balance between cultures and 
language, and I believe that that is what makes a difference in 
terms of success for students. The performance, the high 
academic performance of the students in the lower grades--in 
elementary school--can really provide a basis for middle and 
high school years and serve to reduce the dropout rate. I 
believe that if students are treated as if they are bringing 
something to the table and there is an equal playing field 
that, if NCLB seeks to recognize this, then we will have higher 
success rates at the upper grades.
    Mr. Castle. Congratulations on your school, by the way, and 
all you have done.
    Mr. Zamora. I will be very brief. I could go on and on, 
obviously, but I would like to note at the outset that there 
are very few schools that are being driven into improvement 
status by the performance of the ELL subgroup alone. To the 
extent that ELL subgroups are failing to make AYP, other 
subgroups within that school are also driving the school into 
improvement status, but nonetheless, our recommendations around 
ELL are improving NCLB for ELLs and, I think, would involve 
many of the issues discussed here--teacher quality, certainly 
the quality of the assessments, sort of the incentivizing the 
development of better assessments for ELLs, and also, in my 
written testimony, I discuss the need for increased research on 
both assessment practices and instructional practices for ELL 
students, and also, clearly at the school level, we need the 
implementation of the best instructional methods for English 
language learner students, and to the extent that NCLB can 
incentivize that, then that is a change that we want to 
support.
    Mr. Castle. Thank you.
    Thank you all for doing it within the time limit pretty 
much. We appreciate that.
    I yield back, Mr. Chairman.
    Chairman Kildee. Thank you, Governor.
    The gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman, for holding this 
hearing, and I thank the panel. I just have a couple of 
questions. One was on professional development.
    At what point does the number of English language learners 
in a system suggest that the professional development 
activities for that entire system and for every teacher in that 
system ought to include competencies and attention to English 
language learners, and can you describe how that would be done? 
I mean, how early in the process of professional development, 
going all the way back to teacher education programs, for 
example? Should that element be embedded in order to respond to 
a system or to a jurisdiction that has a high number of English 
language learners? Anybody can take a crack at that.
    Ms. Young. Well, since it is teacher quality, I will go 
first.
    As I said, in California, we infuse the pedagogies and 
strategies for working with English language learners into all 
teacher preparation. All pre service teachers have that infused 
into all of their coursework, field work and student teaching.
    In terms of professional development, you are not going to 
find a classroom in California that does not have English 
language learners in it, and in terms of at what point what 
sort of level at which a teacher needs preparation to work with 
these kids, if it is truly No Child Left Behind, then all 
teachers need this preparation. It constitutes part of the at-
risk population. There are lots of different definitions of 
what kind of criteria could put a child in the category of at 
risk for failure, and certainly, having the challenge of 
learning English at the same time you are expected to learn 
content at the same rate as native English speakers is 
certainly a challenge. Those students need the best-equipped 
teachers for that. I would want all teachers to have that 
preparation.
    Ms. Sanchez. One of the promises of our PROMISE Initiative 
is that, if we can help all of the teachers at a school site to 
become skilled in working with English learners, it will, in 
fact, impact the education of every other student in that 
system, and so I think this notion of trying to work with 
teachers as a system rather than isolating them for particular 
types of professional development is something to look at.
    Ms. Guzman. Just to make sure that I address a little bit 
about what Ms. Sanchez said, at the District of Columbia public 
schools, we have taken an important step to duplicating the 
Oyster model in other schools, and I think that that is 
certainly important. There are currently twelve schools that 
have started to develop the bilingual programs, and we have one 
that is starting in Chinese, and to the extent to which staff 
members of successful schools can play a role in making sure 
that you extend the other programs in other schools, I think 
that that is an important contribution. We have been serving as 
a demonstration site for other schools, and I am sure specific 
schools that have strength in other areas for English language 
learners can also do the same.
    Mr. Zamora. And I would like to jump in just very quickly 
to note that there was a point in our history in which English 
language learners tended to be clustered in particular States 
and particular districts, but due to demographic shifts, that 
is really no longer the case, so areas that traditionally have 
not had high ELL populations are experiencing that now, and so 
I think, really, nationwide there is a need for professional 
development certification for teachers teaching ELLs.
    Mr. Sarbanes. Let me ask you, Mr. Zamora, really quickly. 
Have there been any studies done or attempts to project what 
the difference in outcome in terms of measured proficiency 
would have been in certain schools and with populations of 
English language learners if the right kinds of accommodations 
and the acknowledgment of sort of mitigating circumstances had 
been in place? I mean, I know maybe it is just conjecture, but 
there is the implication there, if we were getting to the 
content knowledge and other things more effectively with the 
testing system, that we would see different results.
    Has there been any kind of study of that?
    Mr. Zamora. Certainly. In terms of instructional practices, 
I mean, we can definitely use the available data, and I think 
we have discussed the flaws in the data to compare the outcomes 
of a school such as Oyster with schools that are implementing 
much less effective models. In terms of State-based 
assessments, there are certain States that have done more than 
others in developing native language and other specific content 
assessments for ELLs.
    So I think those States such as--Ohio, I think, has 
generally done a good job. Texas has some native language 
assessments, not at all grade levels but in some, so those have 
given us better data and, under the theory of NCLB, have been 
driving better instruction.
    Mr. Sarbanes. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kildee. The gentleman from California, the ranking 
member of the full committee, Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. Thank you again for 
holding this hearing.
    I would like to follow up on some of the things that Mr. 
Castle asked, because this is really important. We are trying 
to get as much information as we can as we go through the 
reauthorization. I would like to get a little bit more 
specific.
    Ms. Ashby, you talked about more flexibility. Do you have 
any specific things that we can do?
    Ms. Ashby. I can't give you a prescription for the 
flexibility. One of our recommendations, as I said to the 
department, was that more study be done to determine just what 
types of flexibility are most appropriate.
    Mr. McKeon. If you could even give us something back for 
the record in more specifics, because that is something I know 
we are going to have to come up with, is more flexibility.
    Ms. Ashby. All right. I will say that one of the issues is 
which students should be included among the limited English 
proficiency group and whether, for example, an immigrant 
entering the country who knows no English should be included. 
The first year that person would not be, but whether the person 
should be in the second year or third year, how long limited-
English-proficient students should remain in the group once 
they become fully proficient, that is an issue.
    With other subgroups, racial groups, for example, students 
remain in the groups as long as there are students. But when 
limited-English-proficient students progress to the point of 
being proficient, after a couple of years they are removed from 
the group. So that affects the group assessment and averages 
and so forth. So those are a couple of things.
    Mr. McKeon. If you think of any others, if you could get 
them to us, because those are good points.
    I am a Mormon, so on my mission I served with Spanish-
speaking people in Texas and New Mexico, and I noticed it was 
very difficult for me to learn Spanish because I wanted to make 
sure everything I said was perfect before I said it. So I had 
to think it through in my mind. That is not the way to learn a 
language.
    On the other hand, I have a son who just talks, so he 
learned Portuguese, but he has also picked up Spanish because 
he doesn't worry about saying it perfectly and is very verbal. 
So we learned at different levels.
    I am wondering if--we have supplemental services that 
should be provided in schools that need improvement, and I am 
thinking that that is an area that could really be used because 
you could do one-on-one tutoring language, and that is very 
important because you learn at all different levels.
    Ms. Young, qualified, fully qualified, effective, that is 
something that we really grapple with because you can--if you 
have a Ph.D., you have very good qualifications, if you are a 
chemistry teacher with a Ph.D., probably very, very qualified. 
But if you have a problem communicating to students, you are 
not very effective.
    Qualifications based on degrees is something that can be 
done very objectively. Gauging effectiveness is something that 
is much more subjective. Principals are going to have to really 
play a role as they hire and mentor and move teachers along. If 
you could also get us more input on effective qualified 
teachers, that is something that I know we are going to have to 
address strongly in this process.
    Ms. Sanchez, tell Herb ``hi'' for me.
    Ms. Sanchez. I certainly will.
    Mr. McKeon. Intervention, you talked about moving--how we 
could be more effective in the intervention process? Do you 
have some specifics on that?
    Ms. Sanchez. I will just say if there were at least a 
provision in NCLB that required the mandated interventions to 
represent the research that exists, that that in itself would 
be a huge advance; and that applies as well I think to the 
supplemental educational services. Because, to date, those 
services really don't reflect the research around English 
language learners; and if that could be a provision and if 
those providers could be required to provide those services in 
a way that matches the language of instruction in the schools 
and that supports it, that would also be helpful as well.
    Mr. McKeon. Very good.
    Mr. Zamora. Congressman, I was wondering if I could address 
your issue about flexibility just very briefly.
    Mr. McKeon. You could.
    Mr. Chairman, my time is up, but I have one more little 
question.
    Chairman Kildee. I will let Mr. Zamora finish his response.
    Mr. McKeon. Subgroups, we find that English language 
learners might also be a minority, obviously, probably. Might 
also be a special needs student, and they are judged in all 
these different subgroups, and they can tend to pull a school 
down three times or lift a school up three times. So I think 
that is something that we are going to need to address, is how 
many times you judge the same student and how that weighs on 
how a school is counted.
    Mr. Zamora. Thank you.
    I think the key base fact about English language learners 
is that the vast majority are not newly arrived English 
language learners. As I testified, the majority are, in fact, 
U.S. citizens. So I think that the real issue around 
accountability in ELL is really the test quality issues. So for 
newly arrived or for native born ELLs we are not adequately 
measuring what they know and what they can learn.
    The current flexibility is in the second year of arrival. 
Newly arrived students have to be included in accountability 
systems. I think with the proper assessments there are many 
students who come in with good academic preparation. There is 
also a view that most newly arrived students don't have 
adequate academic preparation from their home country, and that 
is not always accurate.
    Also, under current regulation, schools get credit for 
former ELL populations for 2 years after they have exited ELL 
status; and so flexibility has also been granted in that 
regard.
    Generally, I think if we improve the quality of the 
assessments, we will be able adequately to measure the 
performance of all ELLs and be able to show what they know, be 
able to better bring schools, instead, as you suggest, causing 
improvement status to change.
    Chairman Kildee. The gentlelady from California, Ms. 
Sanchez.
    Ms. Sanchez of California. Thank you, Mr. Chairman.
    I want to welcome all of the witnesses today but in 
particular Ms. Guzman. I have actually had the opportunity to 
visit Oyster School, and it is a fabulous model I think for 
dual-language learning.
    My question is basically for all the members of the panel. 
Many of the schools in my district are Title I schools, and 
many have made progress towards California's AYP goals. My 
district includes many low-income and immigrant families, and 
in more than half of those homes in my district English isn't 
even the primary language that is spoken.
    But, as I understand it, the way that No Child Left Behind 
is set up, students who reach English proficiency move out of 
the relevant subgroup, and yet the AYP goals continue to 
increase every year. So it seems that the requirements are such 
that each year brand new English learners have to perform 
better than the previous year's brand new English learners for 
the subgroup to show improvement.
    I have heard from a number of my local school districts 
that this system isn't going to be sustainable in the long run, 
and I am interested in learning the panel's views of whether 
the increasing yearly goals are a reasonable way to increase 
English proficiency and subject matter proficiency, even though 
new non-English speaking children become part of the testing 
subgroup each year.
    I think that is something you touched on, Ms. Ashby, in 
your last response.
    Ms. Ashby. Yes, it was. You have would have to look at each 
State, the composition of that subgroup, to know whether 
everything you said would play out. It is certainly possible 
that it could. But, as I understand it, there is no end year 
for becoming proficient in the English language. It is not like 
the 2014 goal for academic progression. So that being the case, 
it is probably not as severe a problem as it might be 
otherwise. But you are right.
    Ms. Sanchez of California. It is a problem I hear a lot 
from the teachers who teach in my district, these students who 
come from where English language is not their first language at 
home.
    Ms. Ashby. After 2 years, the students that have become 
proficient are taken out of the group. Of course, it depends on 
the rate of entry and the rate of exit and all kinds of 
technicalities like that.
    Ms. Sanchez of California. But is it fair to say, in order 
to show improvement, those new English language learners would 
have to be doing better than the 2 years previous subgroup of 
new English language learners?
    Ms. Ashby. If the entry and exit rights are approximately 
the same, yes.
    Ms. Sanchez of California. Mr. Zamora, any comment?
    Mr. Zamora. California has a high Spanish-speaking English 
language learner population but has chosen not to implement a 
Spanish language assessment. I think it would relieve a lot of 
that burden if we could measure what Spanish-speaking students 
know in Spanish.
    I think, again, it is primarily a test quality issue. Under 
current regulations, schools actually give credit for 2 years 
after the ELL has exited from ELL status, and the school can 
still count them in the AYP population. There is already a 
recognized benefit and, actually, recently exited ELL students 
outperform their native-English-speaking peers generally upon 
the assessments.
    So I think if California were to develop native language 
assessments--and, actually, they are piloting one but not using 
it for NCLB this year. If they were to use that test to measure 
what the Spanish-speaking students know, that would go a long 
way toward remedying some of these concerns.
    Ms. Sanchez of California. I think that question actually 
hits on a very particular dilemma with regard to English 
learners in that the English learner category is unlike the 
other categories. It is unlike being African American or being 
Latino. The English learner category is a transitional 
category, and so it causes all sorts of issues when you are 
trying to determine, for accountability purposes, achievement.
    One thing that might help is to actually consider
    redefining that category to something like language 
minority students. Because then you would keep a population of 
students in that category in the same way that you would keep a 
population of Latino student in the Latino category, and that 
would allow schools to show progress over time for the same 
group of students.
    Ms. Guzman. I also believe that at the school level if you 
have a testing cohort and if you classified children by 
cohorts, then you could keep track of that particular group of 
students across time and not be matching children that have 
been here for 2 years or children that have been here for 4 
years. You are actually measuring the group you are testing.
    Chairman Kildee. The gentleman from Nevada, Mr. Heller.
    Mr. Heller. No questions. Thank you.
    Chairman Kildee. The gentleman from Pennsylvania, Mr. 
Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I don't have a question other than just to say I appreciate 
the testimony, the written statements you have each provided us 
and the expertise that you all bring to this issue and the 
benefit we will have as we go forward with the reauthorization 
process. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kildee. The gentleman from Illinois, Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    As the population of English language learners increases, I 
am becoming more and more concerned about how our educational 
system responds to the students. As Ms. Ashby testified, when 
an English language learner misses a question on an assessment, 
it is not clear whether it is because the student didn't know 
the answer or because the student didn't understand the 
question. This is, I believe, a very serious issue, and this 
committee and all of us must address it.
    I would like to ask Mr. Zamora and perhaps the panel--I 
tell you what I am hearing in my district. It is a very large 
district, significant Hispanic population. Most of the 
educators that I have talked to said the problem is when the 
ELL child goes home and the parents don't speak English and it 
is very difficult for them to be able to help them with their 
homework, and the concern that they have is that at some point 
that child drops off progress a little bit and, all of a 
sudden, boom, there is no backup. Because the parents don't 
understand and aren't able, through no fault of their own, to 
be able to help them.
    So my question would be to you or to perhaps everybody on 
the panel, how can school districts and how can we in the 
Congress address this problem? Because I think, if we don't, I 
think we are going to have a serious problem here in being able 
to try to help the ELL students.
    I wonder if you have any thoughts on that.
    Mr. Zamora. Thank you very much, Congressman. I think that 
is actually an excellent question, and we haven't touched as 
much in today's hearing around the parental involvement 
components of No Child Left Behind, but many of which are not 
functioning as effectively as they should for English language 
learner parents and especially for immigrant English language 
learner parents.
    One of my Coalition's recommendations is around increasing 
culturally and linguistically sensitive outreach from schools 
to parents. As you know, there are certain challenges within 
the home for ELL students. ELL and immigrant parent are less 
likely to read to their children, for example. There is a very 
important program that is authorized under No Child Left Behind 
right now, the Even Start Family Literacy Program, that has 
been particularly effective. It brings the parents into the 
center, teaches them how to teach their students and has been 
very effective in serving Latino students in particular.
    However, it has been zero funded by the administration for 
the last several years. We have been battling and we have 
managed to save the program, but the funding has been cut year 
after year. We need more of those programs, not fewer.
    Mr. Hare. I would agree with----
    Ms. Sanchez. Could I address that as well?
    One of the very important pieces in our Promise Initiative 
is powerful family and community engagement. What we have done 
with our schools is to help them bring parents into the actual 
planning and designing of the programs for English learners, 
and in that way teachers and other educators are able to tap 
into the resources that those parents and communities bring, 
and they bring a lot of resources that aren't always recognized 
by the school.
    But certainly being able as a parent to know what the 
school is doing, what is happening in the classroom, having a 
teacher that can communicate with the parent in the language 
that the parent understands and provide techniques for the 
parents to use at home with their children, all of this is very 
powerful. I have to second that the Even Start Family Literacy 
Program, I know that we had some funding and lost it, again, 
because of the lack of Federal funding, that was extremely 
powerful. We saw parents who had never come to school to visit 
their children's classroom who are now training other parents 
in how to be more active in their children's academic lives.
    Ms. Guzman. I would like to agree and to underscore the 
importance of parent training and involvement.
    At Oyster, we have an incredible amount of parent 
involvement from both ELL parents and majority parents. 
Bringing the two communities together in one building and 
having them support each other is certainly important, pairing 
up parent with parent so that you have that support for the ELL 
parent that is very consistent with what is going on in the 
school and also training parents on the current issues that 
have to do with--one issue being a big one, homework and how to 
do it and how to address it, also how to address the lack of 
technology somewhat in the ELL families. Many times that 
happens. So you really need to partner parents and to provide a 
very strong support system for ELL parents.
    We have a second language parent training program, and that 
involves training parents on the practical nature of being a 
citizen in the United States and working with their children.
    So a lot of this has to do with even providing some 
resources for community programs. We have--Title I schools 
require that you have a family-parent compact, but non-Title I 
schools are not required to have that. I believe that the 
compacts are somewhat of a contract between the families and 
the school, and those schools that also have English language 
learners but aren't Title I should also be required to 
participate in that type of program.
    Mr. Hare. Thank you. My time is up.
    Let me just conclude by saying we will do everything we can 
to help you on the Even Start. It a great program. We need to 
fund it. Thanks very much.
    Thanks, Mr. Chairman.
    Chairman Kildee. The gentleman from Texas, Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I thank you and the 
ranking member, Mike Castle, for bringing this congressional 
hearing on the impact of NCLB on English language learners, an 
issue that is very important to my district and to my State of 
Texas.
    My first question is to Ms. Ashby. In a separate report the 
GAO issued last year, you found that the Department of 
Education had not taken measures to ensure that the data on 
which it bases State allocations of Title III funding is 
accurate. What would you recommend the Department of Education 
do to correct that? And you have 2 minutes.
    Ms. Ashby. All right. It may not take that long.
    Mr. Hinojosa. Good.
    Ms. Ashby. There are two allowable sources of data for 
determining the distribution of funds for Title III. One is 
census data, the American community survey, and the other is 
actual numbers of students assessed as limited English 
proficient by the States. The Department has to compare the two 
sources and choose the most accurate.
    The Department has not looked at State data because it is 
of the opinion that the data is incomplete. The data has been 
incomplete, although it is getting better. So the Department 
has only used ACS data. Both sets of data have some 
limitations; both are improving.
    Our recommendation was that the Department actually give 
instructions to the States that will help improve the data 
coming from the States, and once that data is improved--well, 
before the data is improved--come up with a mechanism for 
determining which one is the more accurate; and then, of 
course, apply the one that is most accurate.
    Mr. Hinojosa. I think it is shameful that after 5 years 
they don't have the data correct and accurate. I believe that 
the Secretary needs to change the mindset of the people working 
for her so that she can understand that, just like the State of 
Texas has a large Hispanic population, there are other States, 
like California and Florida and others, who believe that this 
needs to be given a high priority.
    My next question, because time is short, is to the 
Principal, Martha Guzman, from the Oyster Bilingual Elementary 
School. I want to commend you, because I have had a personal 
experience in bringing two of my youngest daughters, Kaity and 
Karen, to your school.
    My youngest one, who is now 11, we were seated in the 
gymnasium floor along with all the children the first day that 
I took them to school--by the way, we sat in line for 3 years 
trying to get into your school. The youngest one crossed her 
arms and said, Dad, what in the world are we doing here? I 
don't understand a thing they are saying. And of course she 
didn't know any Spanish. The other one said, Dad, I miss my 
friends over at the other school; and I wish you would just 
take us back.
    However, 2 years later, those two young girls went from 
being B students to being straight A students. They are 
oftentimes in situations with other children, and they will say 
we are the Hinojosa sisters from Texas, and we are proud to be 
bilingual.
    I want you to know that your program is just outstanding, 
and I want you to tell us how important parental involvement is 
in students graduating from high school, through your 
experience.
    Ms. Guzman. As I said before--thank you so much. I miss 
Kaity and Karen, and I hope they are doing well.
    Parental involvement is extremely important, and when we 
bring children, ELL children, to school at Oyster and other 
D.C. public schools I am hopeful that we put as much attention 
into parental involvement as possible.
    We have an advisory committee where we bring parents in to 
make decisions. But prior to them being able to make decisions 
we really have to give them information, and the information 
has to be based on the district requirements and the reality of 
their new lives in many cases. That is why we bring our parents 
in, we make them comfortable, and we offer many, many different 
types of opportunities. I believe that having potlucks is just 
as important as offering a training session, so we do that 
regularly.
    Parents come in at all levels. The social level of ELL 
parents and their comfort level will then translate into making 
them feel comfortable to ask for things that they need in the 
school--from the school system and to be able then to learn who 
to tap in order to get the resources they need.
    Mr. Hinojosa. As time has ended, Mr. Chairman, I want to 
let the record show that the United States is doing very poorly 
when we compare with other countries internationally. Just last 
week, the Washington Post had a report on how Singapore had 
scored number one in global competition of all eighth graders; 
and when Buck McKeon led a group of members of Congress to 
China, we found that China, India, Singapore, those countries 
have told us repeatedly that the number one reason for them 
being able to do what they do so successfully is parental 
involvement.
    So I wish that you panelists, who have done an excellent 
job today, and I thank you, would help us Members of Congress 
to bring parental involvement and get it funded. As many of you 
have said--I think Mr. Zamora said it best when he said that 
Even Start involvement with parental programs is zero funded by 
this administration; and that, my friends, is shameful.
    Thank you, Mr. Chairman.
    Chairman Kildee. The gentlelady from Hawaii, Ms. Hirono.
    Ms. Hirono. Thank you very much, Mr. Chairman.
    The whole point of NCLB, as I see it, is to ensure that our 
students are learning. Yet the tests are becoming the ends in 
themselves, and there is so much focus on it when we should be 
focusing on everything that contributes to that student's 
learning environment, such as, of course, parental involvement, 
early childhood experiences, community involvement, teacher and 
administrative training, even the physical environment that the 
children exist in and try to learn in.
    Over the course of the number of hearings that we have been 
having on NCLB, it is clear to me that we really need to look 
at the assessment aspects of NCLB both in terms of how we 
determine adequate yearly progress, and then when we come to 
the sanctions portions. And what I am getting from this panel--
and please let me know if I have this wrong--is that we need to 
provide much more flexibility in terms of assessment, 
particularly with regard to ELL students who are facing special 
challenges. So we need to have some language that will 
acknowledge the kind of appropriate flexibility that we need to 
provide throughout NCLB in terms of testing.
    Then, when we come to the sanctions, I like the idea of 
putting in perhaps not just in the sanctions portions, but 
putting in where appropriate in the NCLB language that says 
that the approaches that should be taken should be research-
based. I don't think there is that kind of language in NCLB, 
and would you agree that we should as much as possible truly 
base our responses, our research so that we are focused on 
actually helping the students to learn?
    Ms. Sanchez. I think that there is language in NCLB that 
talks about research-based interventions and approaches. The 
problem is that people are interpreting that as sort of generic 
research-based approaches rather than basing their approaches 
on the research specific to the populations that are being 
targeted. And that, I think, is what is missing and would be 
very helpful.
    Ms. Hirono. Thank you. I just wanted to note that English 
is not my first language, and fortunately when I was going to 
school, we didn't have these kind of tests, otherwise I would 
have been labeled as a failure very early on. So I have a very 
particular concern about the kind of one-size-fits-all approach 
that I see too much of in NCLB, and I would like to commend all 
of you for coming today to bring a much more holistic approach 
to the changes that we need to make to this law. Thank you very 
much.
    Ms. Sanchez. If I could just mention that that issue of 
identifying students as failures at a very early age is an 
extremely real issue. And one of the other areas where we could 
use some assistance is in the Reading First portion of No Child 
Left Behind, because, again, schools are being asked to 
implement practices that, in fact, damage children because they 
don't take into account the strengths they bring to school and 
then build on those.
    Ms. Hirono. Do the rest of the panelists agree that too 
early labeling a child--well, of course, you are educators.
    Mr. Zamora. Certainly. I would like also to address the 
notion, which I think is a very frequent thing that one hears, 
that testing is driving teaching--the teachers teaching to the 
test. I think if there is high-quality instruction that is 
being delivered, that is research-based instruction that is 
well funded, supported by the parents, that the tests should 
not drive teaching at that point; that the proficiency levels 
required under State levels are fairly low such that if you are 
giving--or not fairly low, but are such that if you are 
developing a strong curriculum, that passing the test will 
follow, and you wouldn't have to teach to that.
    Ms. Hirono. I agree.
    Ms. Ashby. Since you have a couple of seconds; I am the one 
that originally raised the flexibility issue, and I do think 
that is important. I don't want to lose another issue that we 
have been talking about and several of us have mentioned. In 
order for assessments to be meaningful at all, they have to be 
valid and reliable, and the data that is generated from 
assessments are certainly used in terms of determining whether 
a school or eventually whether schools are in need of 
improvement or not.
    But it also can be used by the faculty and staff at a 
school to determine what type of teaching interventions are 
needed, and, in terms of individual students, what their needs 
are.
    So data is very important, and it has to be valid and 
reliable, or it is just not meaningful, and it can lead you 
along the wrong path.
    Ms. Hirono. Thank you, Mr. Chairman.
    Chairman Kildee. The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I would like to follow 
up on that last question because I understand that each State 
has to figure out its own test; is that right?
    Ms. Ashby. That is correct.
    Mr. Scott. Do they also get to determine who is categorized 
as ELL?
    Ms. Ashby. There are some proscriptions in No Child Left 
Behind. For example, after 3 years of being in the United 
States, the student has to be tested in the language arts 
assessment--has to be included in that assessment.
    Mr. Scott. Can a State configure its definition to help its 
scores? Can you configure your definition to help your scores?
    Ms. Ashby. You possibly could.
    Mr. Scott. These tests, how many ELL tests have been 
rejected by the Department of Education?
    Ms. Ashby. I don't know the answer to that.
    Mr. Scott. You mentioned accurate and valid. Is the 
Department of Education providing appropriate technical 
assistance and guidance on what these tests ought to be in 
terms of validity?
    Ms. Ashby. The Department has provided a lot of technical 
assistance, but what we were told when we were doing the work 
for our 2006 report was that many States and districts need--
feel they need more guidance, particularly with respect to the 
English-proficient component, not the academic, but in terms of 
how to measure and assess students' progress in learning 
English.
    Mr. Scott. Validity is a technical term because a test has 
to be valid for the purpose for which it is being used.
    Ms. Ashby. That is correct. It has to measure what it 
purports to measure.
    Mr. Scott. Right. Is it hard to find the appropriate tests?
    Ms. Ashby. It is very difficult particularly with English 
language learners because it is such a diverse group. This is 
not easy by any means, and that is why a lot of research is 
needed, and flexibility is needed, because populations in 
different States are different. There are over 400 languages 
spoken in our public schools, and the groups are different.
    It matters, for example, whether most of your students were 
literate in their native language or not.
    Mr. Scott. Mr. Zamora, one of the problems we have is we do 
all this testing; do we know after we have got all the test 
results what to do to improve results?
    Mr. Zamora. Certainly. There is effective educational 
research surrounding ELL student achievement and how to improve 
it. I think we certainly need more of that. But certainly 
generally well-trained teachers and strong curricula and 
accommodations and primary language support, some form of 
native language instruction.
    Mr. Scott. Is this information generally known, or do 
States have to figure it out on their own?
    Mr. Zamora. It does exist, but one of my recommendations is 
to support broader dissemination of research from the Federal 
Department of Education. If I can just very quick address the 
assessment issue as well, these are requirements from 1994's 
Improving America's Schools Act, so they do impose burdens on 
the States, and I think the Federal Government can definitely 
do much more both in terms of appropriations from Congress and 
technical assistance from the Department of Education because 
it hasn't been as much as a focus as it should be. I think now 
it is, and we are supporting that and looking to work with you 
to improve it.
    Mr. Scott. Is school dropout a problem with ELL students 
that needs to be specifically addressed?
    Mr. Zamora. Absolutely. School dropout does require 
effective instruction, well-funded schools. It is sort of the 
canary in the coal mine in many instances as to effectiveness 
of school operations. But, yes, ELL students drop out at a 
higher rate than any other subgroup measured under NCLB, and it 
is really a dropout crisis for ELLs.
    Mr. Scott. If we allow them to drop out and don't have 
dropout prevention programs, do the average scores actually 
increase, creating a perverse incentive or disincentive to 
having dropout prevention programs?
    Mr. Zamora. We are looking at accountability measures 
currently around how to hold schools and States accountable for 
dropout rates.
    Mr. Scott. We tried to do that in the original No Child 
Left Behind. My sense is we didn't do a good job; is that 
right?
    Mr. Zamora. I think that is right. I think we are going to 
need to strengthen those provisions and ensure that we 
disaggregate them under the same categories as NCLB.
    Ms. Guzman. If I can just add, my belief is that if you 
have a strong basis in literacy for all ELL students, that you 
will increase their level of proficiency at the elementary 
level, and you will not have the dropout rate at the high 
school level.
    Chairman Kildee. The gentlelady from California Ms. 
Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. I so apologize for 
not having been here.
    I do have a question, but first I would like to propose a 
scenario. So here we go. What if we tested every Member of 
Congress every year on subjects we should know, geography, 
history, the names of our colleagues, and, wait a minute, the 
test is in a language other than English, and those Members who 
fail the test 3 years in a row have to offer to their 
constituents that they can be represented by any other Member 
of Congress that has passed the test. I will tell you what 
would happen; there would be no tests.
    Now, I am not against testing totally. I want No Child Left 
Behind to be based on more tests. But I would like you to tell 
me how you think we can and must--you don't have to say must, I 
am saying must--help English learners to get where they need to 
be over the right period of time--can't be in the same period 
of time that a kid that is not an English learner is being 
tested.
    So what kind of--if you said all this, I so apologize, and 
you probably have this morning, but just for my own help, tell 
me what kind of extra help we need. I don't want to have an 
annual growth of these children get better every year, because 
they will if we do the right thing. I want them to get better 
than better so they get where every other kid is by the time 
they are ready to get out in the outside world.
    Do you know what I am asking, and can you help me know what 
we need to be investing in them?
    Ms. Sanchez. May I address your question?
    Ms. Woolsey. Absolutely.
    Ms. Sanchez. The truth is we have schools across this 
country that routinely school English learners for very high 
levels of success, and we have programs and we know the types 
of programs that can accelerate both learning of English and 
learning of content in ways that last throughout the students' 
educational careers. We know the difference between those and 
the programs that don't.
    The failure we have isn't actually implementing what we 
know works. We don't do that many times for noneducational 
reasons, and I am sure you know what those are. I think that 
being very clear about what has powerful impact and what 
doesn't is something that we need to talk about because we know 
a lot of what we need to do, and we haven't done it. And that 
is why I think programs such as the Promise Initiative are so 
important, because we are saying we are committed to a big 
powerful vision of success for English learners, and we are 
going to do whatever it takes to get there, and we have 
embarked on a program to actually do that in our schools and 
then to put in place the sort of very rigorous research that 
needs to happen to prove that it can be done.
    Ms. Woolsey. Okay. Do you start with the research so you 
know we are not just trying a lot of programs? Are we investing 
enough on the Federal level through No Child Left Behind to 
make this possible?
    Ms. Sanchez. We have not invested enough in actually being 
able to disseminate in ways that are practical to our schools 
what works and why it works. And that is why I think we have to 
be able to focus in partnership with our local schools and 
districts to design based on what we know works, based on the 
research--to design programs that are responsive to the local 
needs and context, and those differ from school to school, from 
community to community. And that is why a one-size-fits-all 
program actually doesn't work. We have to work with the context 
of our schools.
    Mr. Zamora. Congressman, I would like to jump in. I was 
credentialed as a bilingual teacher at the University of San 
Francisco right before Proposition 227 was put in place which 
outlawed native-language instruction in the State of 
California. That was not a decision that was taken based upon 
the best interests or the best research of kids.
    So I think that you certainly cannot ignore the political 
dynamics surrounding English language learners, so we need the 
political will to cut through all of that in order to get to 
the best research, best funding, and the best practices.
    Ms. Woolsey. I represent Marin and Sonoma Counties, two of 
the three counties that voted that down. I am really proud. I 
represent wonderful people.
    Mr. Zamora. Absolutely.
    Ms. Woolsey. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you, Ms. Woolsey.
    The gentleman from New Jersey Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. I have arrived late and 
missed most of the testimony and questioning, so forgive me if 
I go over plowed ground here.
    I would like to know what you think is the--how good are 
the data? Are we leaving too many of the English language 
learners uncounted, unevaluated, not there on the days of 
testing? Is it different for this subgroup than for other 
students?
    Ms. Ashby. I will give it a try. For the English language 
proficiency assessments, this is a relatively new requirement 
beginning in the 2005-2006 school year, and a lot of States and 
districts didn't test for this particular--didn't assess this 
particular element prior to that. So a lot of the assessments 
are relatively new, and their validity, I don't want to say it 
hasn't necessarily been determined, but it hasn't been 
documented. There isn't evidence, research, reports or studies 
that assess the validity and the reliability of a lot of these 
tests, so it is not known how valid or how reliable they are.
    In terms of the other--the academic assessments, there are 
also validity and reliability questions, but there is no issue 
of the students showing up. I mean, 95 percent of the students 
in each subgroup have to take the test, and I haven't seen 
anything that indicates that is a problem, but it is more of 
not knowing whether they are valid or not or reliable or not 
rather than thinking or knowing that they are invalid.
    Mr. Holt. I understand that we need 95 percent of the 
subgroup of English language learners to show up, but do we 
know the population well enough in every school to know whether 
95 percent are showing up, for example? Are there undiagnosed, 
so to speak, English language learners?
    Ms. Ashby. Probably so. And, no, we don't.
    Mr. Zamora. I would also highlight a slightly related but a 
slightly different issue, which is that high N-sizes in many 
States has also led to many ELLs not reaching the target for 
inclusion under the No Child Left Behind. So certainly there 
are major data quality both in terms of counting ELLs and in 
terms of measuring their academic and linguistic performance, 
but also end size is a particular concern in terms of capturing 
ELL achievement.
    Mr. Holt. Thank you, Mr. Chairman.
    Chairman Kildee. Thank you.
    The Chair recognizes again the gentleman from Virginia for 
an inquiry.
    Mr. Scott. Mr. Chairman, I think we are at the end of the 
hearing. Are you going to allow us to send questions to the 
panelists? I would just like to warn them that I am going to 
send a question responding to Dr. Young's testimony pointing 
out a difference between effective teachers and highly 
qualified teachers. Obviously we want the most effective 
teachers, and we want a definition that gets that as close to 
effective. So we will be sending that question.
    Chairman Kildee. Thank you, Mr. Scott.
    I want to first of all thank the panel. You have been very, 
very helpful. You bring a wide range of knowledge on this very, 
very important field. You have indicated this is a growing 
population, it is not something that is going to go away, and 
it enriches our country, but it is something we have to 
address. We deeply appreciate your testimony.
    As previously ordered, Members will have 7 calendar days to 
submit additional materials for the hearing record.
    Any Member who wishes to submit follow-up questions in 
writing to the witnesses should coordinate with Majority staff 
within the requisite time. And without objection, this hearing, 
with thanks to all of you, is adjourned.
    [Question submitted by Mr. Hinojosa follows:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, March 26, 2007.
    Dear Ms. Ashby: Thank you for testifying at the March 23, 2007 
hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education.
    Representative Ruben Hinojosa (D-TX), a Member of the Subcommittee, 
has asked that you respond in writing to the following question:
    I would like to thank you and your staff for the excellent work on 
the two reports on English Language Learners and No Child Left Behind. 
This is critical information for reauthorization. In your testimony you 
mentioned that states were unsure about how to align English language 
proficiency standards with content standards for language arts, 
mathematics, and science. This is very disconcerting as we enter the 
6th year of NCLB implementation. What steps do you recommend that the 
Department or the Congress take to provide technical assistance in this 
area?
    Please send an electronic version of your written response to the 
question to the Committee staff by COB on Friday, March 30--the date on 
which the hearing record will close. If you have any questions, please 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                            Dale E. Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                                 ______
                                 
    [Ms. Ashby's response follows:]

                                                    March 30, 2007.
Hon. George Miller,
Chairman, Committee on Education and Labor, House of Representatives, 
        Washington, DC.
Hon. Dale Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
        Education, House of Representatives, Washington, DC.
    This letter responds to your March 26, 2007 request that we provide 
responses to questions related to our recent testimony before the 
Subcommittee on Early Childhood Education, Elementary and Secondary 
Education on the impact of the No Child Left Behind Act (NCLBA) on 
students with limited English proficiency.\1\ Our testimony discussed 
(1) the extent to which these students are meeting annual academic 
progress goals, (2) what states have done to ensure the validity of 
their academic assessments, (3) how states are assessing English 
proficiency and what they are doing to ensure the validity of their 
assessments, and (4) how the U.S. Department of Education (Education) 
is supporting states' efforts to meet NCLBA's assessment requirements 
for these students. This testimony was based on our recent report on 
these topics.\2\ Your questions, along with our responses, follow.
---------------------------------------------------------------------------
    \1\ GAO, No Child Left Behind Act: Education Assistance Could Help 
States Better Measure Progress of Students with Limited English 
Proficiency, GAO-07-646T (Washington, D.C.: March 23, 2007).
    \2\ GAO, No Child Left Behind Act: Assistance from Education Could 
Help States Better Measure Progress of Students with Limited English 
Proficiency, GAO-06-815 (Washington, D.C.: July 26, 2006).
---------------------------------------------------------------------------
    1. Under current law, states must create individualized tests both 
to assess students' English proficiency and to assess academic 
achievement. Therefore, there are a wide variety of assessments among 
states that differ in terms of rigorousness and validity. With regard 
to academic achievement assessments, states' individual assessments can 
be compared to a national achievement test administered by the National 
Assessment of Educational Progress (NAEP). Is there currently a 
comparable nationally recognized test for ELLs to which state 
assessments can be compared? If not, should such a test be developed?
    To our knowledge, no such nationally recognized test to assess the 
English proficiency of students with limited English proficiency 
exists. Under NCLBA, states must implement several new requirements, 
including developing English language proficiency assessments that are 
aligned to state academic standards; annually assessing the English 
language proficiency of these students; and tracking student progress 
in attaining English proficiency. Officials in some states explained 
that their old tests were not designed to measure student progress over 
time. Further, Education officials told us that the English language 
proficiency tests used by many states prior to NCLBA did not meet the 
requirements of the law.
    As part of our study, we did not assess whether the development of 
a national English language proficiency assessment, similar to the 
NAEP, would be cost-effective or appropriate and therefore do not have 
a position on this policy issue. To our knowledge, no nationally 
accepted standards for English language proficiency currently exist 
from which to develop such an assessment. In its report, the bipartisan 
Commission on No Child Left Behind recommended that Education develop a 
common scale to create a performance standard for what constitutes 
English proficiency across the states.
    2. In your testimony you mentioned that states were unsure about 
how to align English language proficiency standards with content 
standards for language arts, mathematics, and science. This is very 
disconcerting as we enter the 6th year of NCLB implementation. What 
steps do you recommend that the Department or the Congress take to 
provide technical assistance in this area?
    We believe that Education needs to work with states to identify the 
specific problems states are experiencing in aligning the two sets of 
standards and provide technical assistance that is responsive to the 
needs of individual states. In our July 2006 report, we recommended 
that the Secretary of Education publish additional guidance with more 
specific information on the requirements for assessing English language 
proficiency. In response to this recommendation, Education officials 
report that the agency is planning to develop a framework on English 
language proficiency standards and assessments as part of its LEP 
Partnership. Moreover, Education's Title III monitoring visits, during 
which the department reviews the state's progress in developing English 
language proficiency standards and assessments that meet NCLBA 
requirements, present an opportunity for Education to provide 
individualized feedback to states on their standards and assessments. 
We would encourage Education to assess the effectiveness of its efforts 
to provide technical assistance that is responsive to states' needs and 
to make adjustments where necessary.
    If you have any questions about the content of this letter, please 
contact me.
            Sincerely yours,
                               Cornelia M. Ashby, Director,
                    Education, Workforce, and Income Security, GAO.
                                 ______
                                 
    [Question submitted by Mr. Scott follows:]
                          Cornelia Ashby, Director,
     Education, Workforce, and Income Security Issues, GAO,
                                                    Washington, DC;

                                      Peter Zamora,
                        California State University System,
                                                    Long Beach, CA;

                           Marta Guzman, Principal,
                        Oyster Bilingual Elementary School,
                                                    Washington, DC;

 Francisca Sanchez, Assistant Supt. for Curriculum 
                                      and Co-Chair,
                              Hispanic Education Coalition,
                                                    Washington, DC;

  Dr. Beverly L. Young, Assistant Vice Chancellor, 
                                       Instruction,
 Office of San Bernardino County Superintendent of Schools,
                                San Bernardino, CA, March 26, 2007.
    Dear Ms. Ashby, Mr. Zamora, Dr. Young, Ms. Guzman and Ms. Sanchez: 
Thank you for testifying at the March 23, 2007 hearing of the 
Subcommittee on Early Childhood, Elementary and Secondary Education.
    Representative Robert C. ``Bobby'' Scott (D-VA), a Member of the 
Subcommittee, has asked that you respond in writing to the following 
question:
    Under current law, states must create individualized tests both to 
assess students' English proficiency and to assess academic 
achievement. Therefore, there are a wide variety of assessments among 
states that differ in terms of rigorousness and validity. With regard 
to academic achievement assessments, states' individual assessments can 
be compared to a national achievement test administered by the National 
Assessment of Educational Progress (NAEP). Is there currently a 
comparable nationally recognized test for ELLs to which state 
assessments can be compared? If not, should such a test be developed?
    Please send an electronic version of your written response to the 
question to the Committee staff by COB on Friday, March 30--the date on 
which the hearing record will close. If you have any questions, please 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                            Dale E. Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                                 ______
                                 
    [Ms. Guzman's response follows:]

Hon. George Miller,
Chairman, Committee on Education and Labor, House of Representatives, 
        Washington, DC.
Hon. Dale Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
        Education, House of Representatives, Washington, DC.
    Currently, there is not a national assessment for ELL students. 
Each state has to present their own. However, it would be very helpful 
to have an assessment that all ELL students should complete. In the 
DCPS system we are currently using the ACCESS. If all ELL students 
could use the same test it would give Districts comparison data and it 
would help us all ELL students to the same standard.
                                              Marta Guzman,
                                       Oyster Bilingual Elementary.
                                 ______
                                 
    [Mr. Scott's question to Dr. Young follows:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, March 26, 2007.
    Dear Dr. Young: Thank you for testifying at the March 23, 2007 
hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education.
    Representative Robert C. ``Bobby'' Scott (D-VA), a Member of the 
Subcommittee, has asked that you respond in writing to the following 
question:
    Dr. Young, you testified that the No Child Left Behind Act's 
definition of highly qualified teacher, which describes various 
credentials that a teacher must hold, does not necessarily ensure that 
such teachers are highly effective in the classroom, and recommended 
that the Committee consider changing the definition to include concepts 
of effectiveness. Can you describe ways the Committee might do that 
consistent with your experience assessing teacher quality?
    Please send an electronic version of your written response to the 
question to the Committee staff by COB on Friday, March 30--the date on 
which the hearing record will close. If you have any questions, please 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                            Dale E. Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                                 ______
                                 
    [Dr. Young's response follows:]

                                                    March 29, 2007.
Hon. George Miller,
Chairman, Committee on Education and Labor, House of Representatives, 
        Washington, DC.
Hon. Dale Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
        Education, House of Representatives, Washington, DC.
    Dear Chairmen Miller and Kildee: I appreciate the opportunity to 
respond to members' questions, as I did the opportunity to testify at 
the March 23, 2007 hearing of the Subcommittee on Early Childhood, 
Elementary and Secondary Education. I have responded first to the 
question addressed to me by Representative Scott, second to the 
question addressed by Representative Scott to me and other individuals 
who testified, and third to additional questions addressed to me 
related to preparing teachers to be effective in working with English 
Language Learners (ELLs).
    1. Dr. Young, you testified that the No Child Left Behind Act's 
definition of highly qualified teacher, which describes various 
credentials that a teacher must hold, does not necessarily ensure that 
such teachers are highly effective in the classroom, and recommended 
that the Committee consider changing the definition to include concepts 
of effectiveness. Can you describe ways the Committee might do that 
consistent with your experience assessing teacher quality?
    There are three areas that need to be addressed to develop a better 
definition of highly qualified teachers. This is not to say that NCLB 
requirements that teachers meet state certification or licensure 
requirements and have demonstrated subject knowledge and teaching 
skills by passing a rigorous state test should be abandoned. The need 
is to augment the current definition with additional measures that add 
greater meaning to the definition of quality.
    The first issue needing attention concerns the difference between 
tests of knowledge and skills and rigorous demonstrations of knowledge 
and skills. The second issue concerns measures of quality that address 
outcomes in addition to inputs. The third issue concerns designating 
different levels of quality in order for the definition to be more 
meaningful.
Performance Assessment of Teaching Knowledge and Skills
    The question of how to assess teacher quality has been examined 
thoroughly by the nation's foremost experts in teacher education during 
the past decade. There is now a consensus regarding the importance of 
using performance-based assessment that evaluates teaching knowledge 
and skills of teachers as demonstrated in a classroom environment.
    The demonstration of high quality teaching needs to address both 
what teachers know about their subjects and how to teach them and also 
what they can do in the classroom in applying their knowledge and 
skills. For example, it is important that they be able to demonstrate 
that they can plan and implement lessons to teach to standards, assess 
students' needs and design instruction to meet these needs, use a 
variety of effective teaching strategies, and maintain a productive, 
purposeful classroom environment.
    Assessments that use teachers' and students' work samples and 
demonstrations of actual classroom teaching to evaluate what teachers 
do in the classroom are particularly promising methods for assessing 
teacher quality. Large-scale application of such techniques demands new 
expertise on the part of those planning and administering the 
assessments. An example of this is California's Teacher Performance 
Assessment. Beginning in 2008-09, all new teachers will be required to 
demonstrate their knowledge and skills to be recommended for a 
credential.
Measures of Quality That Address Student Learning Outcomes
    The second issue concerns measures of quality that address student 
learning outcomes. Value-added assessment focuses on the extent to 
which a teacher contributes to student learning gains in schools. This 
approach addresses the critical issue of effectiveness in the 
classroom. During the past decade, stemming from the pioneering work of 
William Sanders, value-added assessment methods have been increasingly 
used as a methodology for assessing quality of teaching among new and 
experienced teachers.
    The CSU is at the forefront in large-scale utilization of value-
added methodology, as it has been of evaluation of teacher preparation 
through its Annual CSU Systemwide Evaluation of Teacher Preparation, 
which has been in effect since 2001. This is the largest evaluation of 
teacher preparation in the nation, and has involved surveys of more 
than12,000 graduates of CSU programs and more than10,000 school site 
supervisors, typically principals, who work with and evaluate these 
graduates.
    In collaboration with several large school districts, the CSU's 
Center for Teacher Quality has begun value-added assessments of CSU 
teacher preparation. It will examine the effectiveness of new teachers 
in relation to (a) different levels of teacher preparation, (b) varying 
methods of preparation, and (c) demographic attributes and socio-
economic conditions of schools.
    Congress should provide funds for a number of demonstrations of 
effective, large-scale utilization of performance-based assessments and 
value-added approaches for assessing teacher quality. It is 
particularly important that support be available for demonstrations of 
these more advanced types of assessments that include institutions of 
higher education that prepare and provide professional development for 
teachers. The goal should be for these approaches to become part of the 
fundamental preparation and assessment of entering teachers and 
routinely associated with professional development and assessment of 
experienced teachers.
Differentiation of Qualifications
    The third issue pertains to recognizing differing levels of 
qualifications. Some teachers may enter the teaching force having met 
minimum state certification or licensure requirements, while others 
have met these requirements more fully. In most states, for examples, 
novice teachers (Interns) who have fulfilled minimum state requirements 
may begin teaching and complete additional requirements for 
certification as they serve as teacher of record. At the other end of 
the continuum, teachers certified through the National Board for 
Professional Teaching Standards have demonstrated that they are truly 
high quality teachers.
    In order to define highly effective teaching in a productive 
manner, it would be of considerable value to move beyond the current 
singular conception of a Highly Qualified Teacher. A more meaningful 
set of terms would refer to teachers who are:
    <bullet> Minimally Qualified: Meet Minimum State Certification 
Requirements
    <bullet> Fully Qualified: Meet Full State Certification 
Requirements
    <bullet> Highly Qualified: Exceed Full State Certification Teachers
    These distinctions are important for realizing increases in student 
achievement and can be made operational in the re-authorization of No 
Child Left Behind. We would be pleased to work with the Committee in 
identifying potential roles of institutions of higher education in 
implementing a system that includes measures of teacher effectiveness 
and recognizes levels of teacher quality.
    2. Under current law, states must create individualized tests both 
to assess students' English proficiency and to assess academic 
achievement. Therefore, there are a wide variety of assessments among 
states that differ in terms of rigorousness and validity. With regard 
to academic achievement assessment, states' individual assessments can 
be compared to a national achievement test administered by the National 
Assessment of Educational Progress (NAEP). Is there currently a 
comparable nationally recognized test for ELLs to which state 
assessments can be compared? If not, should such a test be developed?
    There currently is not a test comparable to the National Assessment 
of Educational Progress (NAEP) to which state assessments of academic 
achievement of ELLs can be compared. There are many complex issues 
associated with developing such a test. It is not clear that a single 
test can be developed that adequately measures achievement of ELLs who 
vary widely in English language proficiency.
    It would be extremely difficult, for example, to obtain valid 
assessments of academic achievement with a single multiple-choice test 
that was administered in English to ELLs. If such a test were 
administered in English, it would have to be reserved for students who 
have reached a level 4 or above in English Language Development in 
order to provide a reliable and valid measure of academic achievement. 
Although a test in the primary language might be considered, if no 
instruction is provided in this language, students may not have the 
comprehension and communication skills in the primary language to 
demonstrate their content understanding.
    Due to the complexity of measurement and validity issues, this area 
warrants a feasibility study of a variety of options. It would be most 
appropriate to have a number of potential approaches identified and 
reviewed by experts in the ELL assessment field as well as state 
representatives experienced in assessment of ELLs. Such a study should 
address procedures for assessment of academic achievement either in 
English or the student's primary language as appropriate. It should 
examine procedures for states to administer the test on a large-scale 
basis and should include cost estimates for doing so. Further, the 
analysis should examine the validity of comparing scores of various 
sub-groups of ELLs on the measures of academic achievement with NAEP 
scores. Finally, the study should address methods for integrating 
assessment of students' English proficiency and their academic 
achievement. With a comprehensive feasibility study that examines these 
issues, informed decisions can be made regarding national assessment 
instruments for gauging the academic achievement and English language 
proficiency of ELLs.
    Needless to say, this is not a simple task, and it is most 
important that flexibility be available in the immediate future for 
states to use a range of procedures that are demonstrated to be 
rigorous and valid. Of most urgency is careful re-consideration of how 
the assessment of achievement of ELLs is used in determining Adequate 
Yearly Progress, particularly when there are small numbers of such 
students at school sites.
    3. Should all teachers receive preparation to work with English 
Language Learners? If not, how should the determination be made of 
which teachers should receive the preparation? What should be the 
content of preparation to work with ELLs? Is there a core of 
preparation that should be included in all new teacher preparation?
    In California, virtually all teachers will at some time teach 
English Language Learners, and thus all teachers need this preparation. 
The strategies of effective instruction for ELLs have basic principles 
in common with best instructional practices for all students, and thus 
it is appropriate for all teachers to have this preparation. Most 
importantly, if the nation is truly committed to the proposition of No 
Child Left Behind, all teachers must be prepared to teach all children 
with whom they are likely to work.
    The core preparation for teachers of ELLs consists of two 
interrelated areas. The first is English Language Development (ELD) and 
the second is content knowledge. In English language development, 
preparation focuses on fostering children's learning of English within 
the context of the core curriculum, with special attention to learning 
the language and acquiring the skills to speak, read, and write English 
fluently.
    The second area is content development, where preparation focuses 
on use of Specially Designed Academic Instruction in English (SDAIE). 
This consists of instructional strategies that work particularly well 
for ELLs and are good for all students. In SDAIE, the emphasis is on 
learning content and understanding concepts. Teachers differentiate 
lessons based on the level of English acquired by a child and the 
amount of support needed for instruction to be effective.
    Within SDAIE, teachers are taught strategies for scaffolding the 
curriculum, differentiating the content and the assessments, and 
working with comprehensible input. Scaffolding consists of taking the 
core curriculum and dividing it into parts that are manageable for 
learning. For example, dividing a story into parts, building distinct 
vocabulary knowledge, and learning the content of a topic in chunks are 
ways of scaffolding the core curriculum.
    Differentiation means varied use of enhanced instructional 
strategies, like graphic organizers, pre-writing and pre-reading 
activities, and primary language support to help all students master 
the content they are learning more efficiently. The element of 
comprehensible input means building on what the student knows and using 
the skills and talents of the student in making content meaningful. 
This includes tapping into prior knowledge, drawing upon learning 
strengths, and integrating across the curriculum for ease of mastering 
concepts being taught.
    Within both ELD and SDAIE, there is an emphasis on multiple 
measures for assessment in order to ensure students are learning both 
content and English. It is recognized as essential that content 
knowledge is demonstrated in a variety of ways to make certain that the 
core curriculum is being mastered. It is equally important that the 
acquisition of English be measured accurately in order for instruction 
to be modified to meet the instructional and language needs of 
students.
    In California, the language assessment used is the CELDT 
(California English Language Development Test), which indicates to 
teachers the level of English language development of students for use 
in planning instruction. Teachers are taught how to scaffold and 
differentiate lessons for the various levels of English acquired. For 
example, a Level 1 student would be expected to complete very different 
assignments than a Level 4 student. Assessment, therefore, is a key to 
effective instruction and provides the foundation upon which a teacher 
can build lessons that are meaningful, comprehensible, and tailored to 
meet student needs.
    To the extent that these two components can be integrated into 
instruction, students learn the content and master English much more 
quickly, since both the language and the concepts are learned 
simultaneously. Modifications are made to the basic instructional 
program to help all students learn and acquire both content and 
English, thus enabling teachers to work with all students in the 
regular classroom in a manner that is effective and efficient.
    I have attempted to provide thorough responses to the three highly 
significant questions posed by Subcommittee members. Please do not 
hesitate to let me know if there are any additional ways we can be of 
assistance in formulating specific solutions to these complex issues.
            Sincerely,
                                      Beverly Young, Ph.D.,
                                         Assistant Vice Chancellor.
                                 ______
                                 
    [Mr. Hinojosa's question to Mr. Zamora follows:]

                  Committee on Education and Labor,
                             U.S. House of Representatives,
                                    Washington, DC, March 26, 2007.
    Dear Mr. Zamora: Thank you for testifying at the March 23, 2007 
hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education.
    Representative Ruben Hinojosa (D-TX), a Member of the Subcommittee, 
has asked that you respond in writing to the following question:
    In your testimony you referenced the Lau case in which the Supreme 
Court found that providing identical education was not the same as 
providing equal education if students' language needs were not 
addressed. In a subsequent case called Castaneda, the court defined 
criteria for appropriate action for English language learners which 
included a pedagogically sound plan for English language learners, 
qualified staff, effective implementation, and program evaluation. Has 
NCLB been implemented in a manner consistent with the requirements of 
Castaneda? How can we strengthen NCLB in this regard?
    Please send an electronic version of your written response to the 
question to the Committee staff by COB on Friday, March 30--the date on 
which the hearing record will close. If you have any questions, please 
contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                            Dale E. Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
                                                         Education.
                                 ______
                                 
    [Mr. Zamora's responses follow:]

Hon. George Miller,
Chairman, Committee on Education and Labor, House of Representatives, 
        Washington, DC.
Hon. Dale Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
        Education, House of Representatives, Washington, DC.
    Under current law, states must create individualized tests both to 
assess students' English proficiency and to assess academic 
achievement. Therefore, there are a variety of assessments among states 
that differ in terms of rigorousness and validity. With regard to 
academic achievement assessments, states' individualized assessments 
can be compared to a national achievement test administered by the 
National Assessment of Educational Progress (NAEP). Is there currently 
a comparable nationally recognized test for ELLs to which state 
assessments can be compared? If not, should such a test be developed?
    There currently exists no nationally-recognized test that measures 
the academic achievement or English language proficiency of English 
language learners (ELLs) against state academic standards and fully 
meets technical requirements for validity and reliability for ELL 
students. While the National Assessment Governing Board (NAGB), which 
administers the National Assessment of Educational Progress (NAEP), has 
taken limited steps to improve the validity and reliability of NAEP 
content assessments for ELLs, the NAEP is not an adequate comparator 
for Title I assessments and lacks sufficient evidence regarding 
validity and reliability for ELLs. Rather than developing a single 
nationwide test of ELL academic achievement or English language 
proficiency, MALDEF recommends that Congress support the development of 
a substantial item bank of native-language test questions so that 
states may easily devise native-language academic content assessments 
that are aligned to each state's academic standards and to classroom 
instruction.
    The NAEP is not an adequate comparator for NCLB content assessments 
because the NAEP is not, by design, aligned to each state's academic 
content standards or to classroom instruction. The NAEP provides a 
snapshot of student performance as measured against NAGB standards for 
academic content achievement. It does not, however, serve as an 
accurate measure of student knowledge or academic progress as measured 
against state standards, as required under NCLB.
    Further, while NAGB has taken certain limited steps to improve the 
validity and reliability of the NAEP for ELLs, significant improvements 
to the NAEP are required before it will be a valid and reliable measure 
of ELL academic content knowledge. Prior to 1996, NAEP had no policy of 
allowing testing accommodations for ELL students.1 The NAEP began 
offering accommodations to all students who need them to demonstrate 
their knowledge and ability only in 2002.2 A National Center for 
Education Statistics study of NAEP testing accommodations for a sample 
of ELLs found that additional evidence is required to ensure that NAEP 
testing accommodations generate valid and reliable results for ELLs.3
    Moreover, the NAEP is generally not administered in the native 
language of ELLs, an accommodation that greatly improves the validity 
and reliability of content assessments for ELLs (especially those new 
to U.S. schools and those receiving instruction in their native 
language). While NAGB did administer the NAEP mathematics tests in 
Spanish to Puerto Rican students in 2003 and 2005, NAGB has yet to 
develop and implement reading/language arts assessments in Spanish or 
other native languages of ELLs.4
    There exists no nationwide assessment for the English language 
proficiency (ELP) of ELLs. In the 2005-06 school year, 22 states used 
assessments or test items developed by one of four state consortia, 
making this the most common approach taken by states to develop new ELP 
assessments.5 Because NCLB requires that ELP assessments be aligned to 
state academic standards, however, alignment concerns continue to 
influence the validity and reliability of these ELP assessments.6 Also, 
because ELP assessments are in English, not the native language of 
ELLs, the use of ELP assessments to measure academic content is 
generally less appropriate than the use of native language or bilingual 
content assessments under Title I.
    Rather than developing a single nationwide assessment for ELLs, 
Congress should support the development of a substantial item bank of 
native-language test questions that can be used by states in developing 
native-language or bilingual content tests aligned to each state's 
academic standards. As noted above, no single nationwide test can 
adequately measure ELL student academic progress because a nationwide 
assessment cannot be aligned to state-specific content standards, 
English language development standards, or classroom instruction. 
Through the LEP Partnership, which unites MALDEF, the National Council 
of La Raza, the U.S. Department of Education, and all 50 states, 
discussions are underway regarding the creation of native-language test 
item banks that would greatly assist states in developing valid and 
reliable assessments for ELLs. MALDEF strongly recommends that Congress 
support these efforts in order to assist states in measuring ELL 
achievement and ensure that ELLs students are appropriately included in 
NCLB accountability systems.
                                              Peter Zamora,
        MALDEF Washington, DC Regional Counsel, Hispanic Education 
                                                Coalition Co-Chair.
                                endnotes
    \1\ See http://nces.ed.gov/nationsreportcard/about/inclusion.asp
    \2\ See id.
    \3\ Abedi, J., Lord, C., Kim, C., Miyoshi, J., ``The Effects of 
Accommodations on the Assessment of LEP Students in NAEP,'' National 
Center for Education Statistics, Washington DC: 2001 (available at 
http://nces.ed.gov/pubs2001/200113.pdf).
    \4\ See Olson, L., ``Puerto Rico's Students Perform Poorly on NAEP 
Mathematics Tests,'' Education Week, March 29, 2007 (available at 
http://www.edweek.org/ew/articles/2007/03/29/31naep--web.h26.html).
    \5\ U.S. Government Accountability Office, ``No Child Left Behind 
Act: Assistance from Education Could Help States Better Measure 
Progress of Students with Limited English Proficiency,'' GAO-06-815, 
July 2006, p35 (available at http://www.gao.gov/new.items/d06815.pdf).
    \6\ See id.
                                 ______
                                 
Hon. George Miller,
Chairman, Committee on Education and Labor, House of Representatives, 
        Washington, DC.
Hon. Dale Kildee,
Chairman, Subcommittee on Early Childhood, Elementary and Secondary 
        Education, House of Representatives, Washington, DC.
    Question: In your testimony you referenced the Lau case in which 
the Supreme Court found that providing identical education was not the 
same as providing equal education if students' language needs were not 
addressed. In a subsequent case called Castaneda, the court defined 
criteria for appropriate action for English language learners which 
included a pedagogically sound plan for English language learners, 
qualified staff, effective implementation, and program evaluation. Has 
NCLB been implemented in a manner consistent with the requirements of 
Castaneda? How can we strengthen NCLB in this regard?

    Answer: In Castaneda v. Pickard,\1\ the United States Court of 
Appeals for the Fifth Circuit issued criteria for determining the 
appropriateness of educational programs for English language learners 
(ELLs) under the Equal Educational Opportunities Act of 1974:
    1) The program must be based in sound educational theory;
    2) The program must be implemented effectively with adequate 
resources and personnel; and
    3) The program must be evaluated as effective in overcoming 
language handicaps.\2\
    The implementation of the No Child Left Behind Act (NCLB) has not 
fully met the second and third prongs of the Castaneda test for 
appropriate educational programs for ELLs.
    NCLB codifies the first prong of the Castaneda standard. Title I 
expressly intends to ensure that all children have access to 
``effective, scientifically based instructional strategies and 
challenging academic content.'' \3\ It requires that Title I schoolwide 
programs use ``only effective methods and instructional strategies that 
are based on scientifically based research that * * * include 
strategies for meeting the educational needs of historically 
underserved populations.'' \4\ School reforms plans implemented under 
Title I also must use scientifically based research in addressing needs 
of all students.\5\ Under Title I, ELLs must be assessed for academic 
content ``to the extent practicable, [using] assessments in the 
language and form most likely to yield accurate data on what such 
students know and can do in academic content areas.'' \6\ Further, 
funds provided through subgrants under Title III of NCLB must be used, 
under the express language of the statute, to implement ``approaches 
and methodologies based on scientifically based research on teaching 
limited English proficient children.'' \7\
    The second prong of Castaneda, however, which requires the 
effective implementation of programs carried out under NCLB, has not 
yet been satisfied by the federal government and many of the states, 
school districts, and schools charged with carrying out the law. 
Significant underfunding of Title I, Title III, and other programs 
authorized under NCLB, as well as a nationwide shortage of teachers 
well-trained to meet ELLs' particular academic needs, raise significant 
concerns under the Castaneda requirement for effective implementation. 
Further, as I noted in my testimony, NCLB has not, despite its 
statutory language, led to the universal implementation of sound 
research-based instructional programs for all English language 
learners. A considerable body of education research on ELL student 
achievement demonstrates that 1) native language instruction 
significantly improves ELLs' academic achievement in English and 2) 
ELLs require specific instructional accommodations designed to minimize 
the effects of English proficiency upon academic achievement.\8\ 
Despite this body of research, ELLs nationwide are currently enrolled 
in a patchwork of instructional programs, many of which do not reflect 
the best practices for this student population.\9\
    The implementation of the assessment provisions of Title I and 
Title III of NCLB also fall short of the second prong of the Castaneda 
test. As the Government Accountability Office has reported and I noted 
in my testimony before the Subcommittee, states have not yet allocated 
sufficient resources to developing assessments specifically designed to 
evaluate the academic knowledge and English proficiency of ELLs. The 
GAO also found that many states lack evidence that their English 
language proficiency assessments are fully aligned to state content 
standards in reading/language arts.
    Poor implementation of the assessment provisions of Title I and 
Title III also raise concerns regarding the effective evaluation of 
NCLB programs, as required under the third prong of the Castaneda test. 
The Castaneda court decried the fact the plaintiffs in Castaneda were, 
like the majority of ELLs today, evaluated for academic content 
knowledge using English-language tests that were not true measures of 
their academic performance.\10\ The Castaneda court in effect 
anticipated flaws in assessment-based accountability systems, such as 
those authorized under NCLB, when English-language tests are used to 
evaluate the effectiveness of instructional programs for ELLs. As noted 
in the recommendations accompanying my written testimony, the Hispanic 
Education Coalition advocates the increased development and use of 
native language content assessments, which are required under Title I 
``when practicable'' and are more likely to yield valid and reliable 
results for ELLs.
    Title III of NCLB codifies the evaluation requirement of the third 
prong of Castaneda, but evaluations under Title III have not been 
effectively implemented by states or enforced by the U.S. Department of 
Education. Under Section 3121, ``Evaluations,'' each eligible entity 
receiving a Title III subgrant must conduct biennial evaluations of the 
effectiveness of education programs and activities for English language 
learners. In practice, however, these evaluations have not yet led to 
fully effective education programs for many ELLs in U.S. public 
schools.
    While the design of NCLB largely meets Castaneda's requirement for 
the use of effective instructional techniques and periodic evaluations 
of education programs for ELLs, the implementation of NCLB requires 
significant improvements in order to satisfy the second prong of the 
Castaneda standard. NCLB implementation and design should be 
strengthened as follows in order to support education programs for ELLs 
that fully meet the legal requirements set forth in Castaneda:
    1) Congress must appropriate funds sufficient to implement well-
designed, well-implemented, and effective NCLB programs and evaluations 
for ELLs;
    2) The U.S. Department of Education must fully enforce NCLB 
assessment and evaluation provisions for ELLs and provide effective and 
ongoing technical assistance in the development of appropriate 
assessments to state education agencies;
    3) States must focus attention and resources upon developing and 
implementing valid and reliable content assessments for ELLs, 
preferably in the native language;
    4) A reauthorized NCLB should establish a separate funding stream 
to assist states in developing and implementing appropriate academic 
assessments for ELLs;
    5) A reauthorized NCLB should require that states that have 
significant ELL populations from a single language group develop valid 
and reliable content assessments designed specifically for members of 
that language group;
    6) States, schools and school districts must implement 
scientifically-based instructional practices that will provide ELL 
students with opportunities to develop both English proficiency and 
content area knowledge;
    7) The federal government and states must allocate significant 
resources to support the certification of teachers trained in 
appropriate instructional practices for ELLs;
    8) The federal government, states, school districts, and schools 
must allocate resources for the professional development in the best 
instructional practices for ELLs for all teachers who teach ELL 
students;
    9) The federal government must fund scientifically-based research 
and disseminate findings on best effective practices for ELL student 
instruction; and
    10) Federal, state, and local school officials must ensure that 
ELLs are fully and appropriately included in NCLB accountability 
systems so that schools focus upon meeting the academic needs of ELLs.
                                              Peter Zamora,
        MALDEF Washington, DC Regional Counsel, Hispanic Education 
                                                Coalition Co-Chair.
                                endnotes
    \1\ 648 F.2d 989 (5th Cir. 1981).
    \2\ Id. at 1009-10.
    \3\ Section 1001(9)
    \4\ Section 1114(b)(1)(B)(ii).
    \5\ Section 1116(b)(3)(A)(i).
    \6\ Sec. 1111(b)(3)(C)(ix)(III).
    \7\ 3115(a)
    \8\ See, e.g., Goldenberg, C., Improving Achievement for English 
Language Learners: What the Research Tells Us, Education Week, Vol. 25, 
Issue 43, pp34-36 (July 26, 2006). Appropriate educational 
accommodations for ELLs include: strategic use of the native language; 
predictable, clear, and consistent instructions, expectations, and 
routines; identifying and clarifying difficult words and passages; 
paraphrasing students' remarks; and other measures designed to minimize 
the effect of limited English proficiency upon academic achievement.
    \9\ U.S. Government Accountability Office, No Child Left Behind 
Act: Education's Data Improvement Efforts Could Strengthen the Basis 
for Distributing Title III Funds, GAO-07-140, December 2006, p32 
(available at http://www.gao.gov/new.items/d07140.pdf).
    \10\ 848 F.2d at 1014 (noting that ``[p]laintiffs contend that 
testing the achievement levels of children, who are admittedly not yet 
literate in English and are receiving instruction in [Spanish], through 
the use of an English language achievement test, does not meaningfully 
assess their achievement, any more than it does their ability, a 
contention with which we can scarcely disagree.'')
                                 ______
                                 
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
